<html>
<title> - AN UPDATE: PIRACY ON UNVERSITY NETWORKS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                AN UPDATE: PIRACY ON UNVERSITY NETWORKS 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON COURTS, THE INTERNET,
                       AND INTELLECTUAL PROPERTY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2007

                               __________

                           Serial No. 110-29

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

33-812 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

    Subcommittee on Courts, the Internet, and Intellectual Property

                 HOWARD L. BERMAN, California, Chairman

JOHN CONYERS, Jr., Michigan          HOWARD COBLE, North Carolina
RICK BOUCHER, Virginia               TOM FEENEY, Florida
MARTIN T. MEEHAN, Massachusetts      LAMAR SMITH, Texas
ROBERT WEXLER, Florida               F. JAMES SENSENBRENNER, Jr., 
MELVIN L. WATT, North Carolina       Wisconsin
SHEILA JACKSON LEE, Texas            ELTON GALLEGLY, California
STEVE COHEN, Tennessee               BOB GOODLATTE, Virginia
HANK JOHNSON, Georgia                STEVE CHABOT, Ohio
BRAD SHERMAN, California             CHRIS CANNON, Utah
ANTHONY D. WEINER, New York          RIC KELLER, Florida
ADAM B. SCHIFF, California           DARRELL ISSA, California
ZOE LOFGREN, California              MIKE PENCE, Indiana


                     Shanna Winters, Chief Counsel

                    Blaine Merritt, Minority Counsel
























                            C O N T E N T S

                              ----------                              

                             MARCH 8, 2007

                                                                   Page

                           OPENING STATEMENT

The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on Courts, 
  the Internet, and Intellectual Property........................     1
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Courts, the Internet, and Intellectual Property................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Courts, the Internet, 
  and Intellectual Property......................................     4
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California, and Member, Subcommittee on Courts, the 
  Internet, and Intellectual Property............................     5

                               WITNESSES

Mr. Cary H. Sherman, President, Recording Industry Association of 
  America, Washington, DC
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
Mr. John C. Vaughn, Executive Vice President, Association of 
  American Universities, Washington, DC
  Oral Testimony.................................................    13
  Prepared Statement.............................................    14
Mr. Gregory J. Marchwinski, President and Chief Executive 
  Officer, Red Lambda, Longwood, FL
  Oral Testimony.................................................    17
  Prepared Statement.............................................    20
Mr. Jim Davis, Associate Vice Chancellor for Information 
  Technology, University of California, Los Angeles, CA
  Oral Testimony.................................................    35
  Prepared Statement.............................................    36

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Stephen I. Cohen, a 
  Representative in Congress from the State of Tennessee, and 
  Member, Subcommittee on Courts, the Internet, and Intellectual 
  Property.......................................................    63
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Courts, the Internet, and Intellectual Property    63
Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, Ranking Member, Committee 
  on the Judiciary, and Member, Subcommittee on Courts, the 
  Internet, and Intellectual Property............................    67
GAO Study of Colleges submitted by the Honorable Howard L. 
  Berman, a Representative in Congress from the State of 
  California, and Chairman, Subcommittee on Courts, the Internet, 
  and Intellectual Property......................................    68
Dear Colleague Letter, Curbing Student Digital Piracy on College 
  Computer Networks..............................................    70
Top schools receiving the highest volume of DMCA copyright 
  infringement notices from the RIAA beginning in September 2006 
  through mid-February 2007......................................    72
Additional material submitted by John C. Vaughn, Executive Vice 
  President, Association of American Universities, Washington, DC    73
Letter from Dan Glickman, Chairman and Chief Executive Officer, 
  Motion Picture Association of America, Washington, DC..........    75


                         AN UPDATE: PIRACY ON 
                           UNVERSITY NETWORKS

                              ----------                              


                        THURSDAY, MARCH 8, 2007

                  House of Representatives,
              Subcommittee on Courts, the Internet,
                         and Intellectual Property,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:57 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Berman (Chairman of the Subcommittee) presiding.
    Staff present: Perry Apelbaum, Staff Director and Chief 
Counsel; Joseph Gibson, Minority Chief Counsel; Shanna Winters, 
Minority Counsel; David Whitney, Minority Counsel; and Rosalind 
Jackson, Professional Staff Member.
    Mr. Berman. This hearing of the Subcommittee on Courts, the 
Internet, and Intellectual Property will come to order.
    I apologize that we are an hour late; that is the bad news. 
The good news is we won't be interrupted by votes during this 
hearing.
    I would like to begin by welcoming everyone to the hearing, 
a hearing we have entitled, ``An Update: Piracy on University 
Networks.''
    And in particular, I want to take a few moments to extend 
my warm regards to the Ranking Member of the Subcommittee, 
Howard Coble. I had the privilege and the pleasure of working 
with Howard when I was Ranking Member and he was Chairman of 
this Subcommittee a few years ago. Somehow things got reversed, 
but the one thing I remember was how fairly he treated me and 
how well I thought we worked together. And I look forward to us 
continuing to work together.
    Our first hearing, Howard was at a funeral of one of our 
colleagues and so he wasn't here. And I am really looking 
forward to these next 2 years working with him.
    I am pleased that the other Members and the Chairman of our 
Committee are here.
    I am going to skip some of my opening statement but not all 
of it.
    There is little debate about piracy's devastating impact on 
the economy. In 2005, worldwide piracy cost the motion picture 
industry $18.2 billion; the sound recording industry, over $4.5 
billion. That is real money.
    Currently, there are multiple causes of piracy, and 
universities are not the sole problem. But I am concerned with 
a 2006 study conducted by the LEK Consulting Group, which 
attributed 44 percent of the motion picture industry's domestic 
piracy losses to student piracy, a loss of over half a billion 
dollars.
    That percentage seemed high to me, especially in light of 
many universities claims that they actively combat piracy. I 
had hoped my request to the GAO, with Congressman Lamar Smith, 
that asked for a study examining the scope of piracy and the 
universities' responses to it, would help to quantify the 
problem.
    I can only assume that fear of being held accountable for 
their answers, plus discouragement from the American Council on 
Education, prevented 50 percent of the schools surveyed from 
responding.
    The Joint Committee on Higher Education and Entertainment 
Communities believe that curbing piracy at universities require 
a multi-part solution: Education, enforcement, technological 
improvements and affordable legal alternatives to illegal 
downloading.
    Many universities have taken these varied approaches to 
curbing piracy. We are going to hear from some of them today.
    Unfortunately, many schools have turned a blind eye to 
piracy. I don't doubt that there are legitimate issues that 
universities must grapple with, including privacy and cost 
concerns. However, when a university, such as Purdue, tells the 
AP that it rarely even notifies students accused by the RIAA 
because it is too much trouble to track down alleged offenders, 
such action is not acceptable.
    We invited a representative of Purdue to attend today, in 
part, to thank them for their participation in the GAO study 
and to explain the school's policy, and someone accepted but 
they later declined. Even after receiving over 1,000 complaints 
this year, the second most notices received by any university, 
Purdue still maintains that its students are not repeat 
offenders.
    Compounding the problem, much of the piracy takes place on 
universities' local area networks, LANs, a place that, unlike 
the Internet, only universities can access and control. Since 
universities are the only parties that can monitor file-sharing 
over their LANs, shouldn't they bear some responsibility for 
monitoring piracy that takes place over their networks?
    The RIAA released a list of the top 25 schools that 
received the most music theft complaints. Upon the dubious 
distinction of receiving first place on the RIAA's list, Ohio 
University stiffened its policy and now refers students to the 
campus police on the first offense. I suppose a list, such as 
the RIAA list, motivates schools to take action through the 
embarrassment of negative publicity, and to that end, the 
Subcommittee would be interested in seeing the MPAAs top 25 
list.
    I would like to see the new list 6 months from now also 
with the hope they will effect a change from the schools 
currently listed. And while I am at it, I will be asking the 
GAO for a list to add to the record of the schools that refused 
to comply with the GAO study.
    The Subcommittee has been looking at the university piracy 
issue for a number of years now, and the scope of the problem 
may require other Committees, such as Education, to engage on 
the issue as well.
    In addition, individual Members, such as Majority Leader 
Hoyer, and I, and Lamar Smith, and Mary Bono, have explored 
both legislative--Bob Goodlatte as well--legislative and non-
legislative options for encouraging universities to stop 
piracy.
    However, when I hear responses, such as Purdue's, to the 
piracy problem, I am concerned that current law isn't giving 
universities enough incentive to stop piracy.
    The statistics demonstrate that students engage in rampant 
piracy, and while Congress has given universities many 
exemptions from copyright liability, it might be time to 
condition some of those exemptions on action taken by 
universities to address the piracy problem.
    Perhaps the most ironic issue is that many universities 
expect others to respect and protect their intellectual 
property rights to scholarly works and inventions but seem to 
disregard or close their eyes to the theft of the creative 
works of others.
    Of all the parties involved in the piracy problem, 
universities are in a unique position to help shape the moral, 
legal and responsible behavior of today's youth. I believe they 
must become partners in ensuring that creators receive 
compensation for the works that students enjoy.
    I am now pleased to recommend my friend and my partner in 
all of this, the Ranking Member, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. As you said, 
unfortunately, I missed the first hearing because of Dr. 
Norwood's funeral.
    Thomas Wolfe, a great man of letters and native North 
Carolinian, once wrote a novel, Mr. Chairman, entitled, ``You 
Can't Go Home Again.'' Well, with apologies to my fellow Tar 
Heel I am back home. I have always regarded this Subcommittee 
as my legislative home, and I am indeed pleased to be back with 
you, Mr. Chairman.
    And I thank the distinguished Ranking Member from Texas for 
having named me the Ranking Republican.
    Mr. Chairman, you were a tremendous asset to this 
Subcommittee when I had the privilege to serve as Chairman and 
you the Ranking Member. The bipartisan nature of the 
Subcommittee is one of the great institutional attributes and 
explains why we accomplished a good deal during those 6 years 
we were together. I have no doubt that we will accomplish much 
more under your stewardship.
    You may remember, Mr. Chairman, back in those days, many 
people in this town referred to this Subcommittee as the Howard 
and Howard Show or some called it the Howie and Howie Show. I 
received a telephone call last week from a reporter from a wire 
service, known to all of you, and she said, ``We are looking 
forward to the return of the Howard and Howard Show.'' 
[Laughter.]
    So we have some supporters still left, Mr. Chairman.
    But on to the subject at hand. While I have not served on 
the Subcommittee for the past 4 years, I have remained 
intensely interested in its work. One of the priorities for the 
Subcommittee under Chairman Smith and Chairman Berman, as the 
Ranking Member then--he was here earlier but he had to leave--
was to raise awareness about the impact of student digital 
piracy on campuses and to encourage efforts among persons of 
good will to adopt effective practices to combat such theft.
    Indeed, this issue has been a bipartisan priority, and I 
commend you, Mr. Chairman, and Mr. Smith. I think you all 
conducted three hearings during the past two Congresses on this 
very subject matter.
    To those who grew up listening to 45s, 78s and LPs, the 
erosion of respect for intellectual property rights and the 
notion that something of value can be perfectly copied, 
``uploaded,'' and distributed an infinite number of times 
across the public Internet or a private local area network 
without compensating the creator of the work seems fun and 
fundamentally unfair.
    The ability to do something is not commensurate with the 
right to do it. And those who have the ability to prevent such 
behavior have a moral, ethical and I believe legal obligation 
to do so.
    Mr. Chairman, we have before us, as you pointed out, a 
diverse panel of witnesses. They will soon present to the 
Members of this Subcommittee testimony that addresses the 
extent of the theft that is occurring on college campuses, the 
range of steps universities have taken or, in the alternative, 
are refusing to take to combat this epidemic of piracy and 
technological measures available today that may help staunch 
the massive uncompensated hemorrhaging of copyrighted works 
attributable to student digital piracy.
    That concludes my opening remarks, and I look forward to 
working with you and the other Subcommittee Members for the 
next 2 years.
    Mr. Berman. Well, thank you very much, and thank you for 
those kind words, which you forgot to add that some people used 
to refer to you as Howard the Good and me as Howard the Bad. 
[Laughter.]
    I am now pleased to recognize the Chairman of the House 
Judiciary Committee, Mr. Conyers.
    Mr. Conyers. Thank you very much, Mr. Chairman. I commend 
you and the previous Subcommittee Chairman of this Committee 
for their diligent, continued attention to the subject matter 
at hand.
    We have these hearings to show everyone involved that we 
take this issue very seriously. Despite its importance, there 
remains a disconnect between the problem and an effective 
solution, because piracy on university campuses is still 
rampant and widespread. We are having a problem, obviously, and 
we have to strike the right balance between stemming illegal 
downloading and preserving academic freedoms and privacy.
    On the one hand, there are, unfortunately, too many schools 
who have done little or nothing to address this problem. These 
schools claim that efforts to stamp out piracy infringe on 
academic freedom and potentially violate a student's privacy.
    In addition, some universities see no incentive and no 
benefit to trying to police illegal piracy. This to me is an 
unacceptable response.
    On the other hand, many schools feel they have a strong and 
effective program and are doing everything they can to stamp 
out piracy. I have been checking in the State of Michigan. Two 
universities, the University of Michigan and Michigan State 
University, have detailed policies and practices that both 
educate students and sanction violators.
    These universities feel that they are doing hard work to 
stop the problem, but they are not willing to police or monitor 
their students and want to preserve the freedom and unfettered 
access that higher education institutions represent.
    And I think that is what brings us here. There are more 
approaches being used. There is new technology emerging. We 
hope to hear more about it.
    But it is clear that we cannot allow universities to do 
little or nothing. Campus piracy doesn't just harm the 
copyright owners; it harms the universities as well. Illegal 
use of peer-to-peer networks can lead to invasions of student 
privacy, viruses and other potential security threats to the 
university's network. It uses bandwidth that could be used for 
legitimate purposes.
    And so we are having this hearing because we are serious 
about the problem. I commend the Chairman and the Ranking 
Member in this endeavor and join in welcoming the witnesses.
    Thank you, sir.
    Mr. Berman. We would like to move as soon as possible to 
the witnesses, only because we are starting so late, but 
Congressman Sherman is recognized for an opening statement.
    Mr. Sherman of California. Business ethics education starts 
with undergraduate education. I believe that the leaders of the 
WorldComs and Enrons of the future will be educated at those 
schools that deliberately facilitate the theft of intellectual 
property.
    I yield back.
    Mr. Berman. I thank the gentleman.
    I think there are no other people on my side who want to 
make an opening statement. I don't know if there is anyone on 
the minority side that wishes to, but, if not, we will go to 
our----
    Mr. Coble. Mr. Chairman, may I have a unanimous consent 
request to introduce into the record----
    Mr. Berman [continuing]. Sure. The gentleman is recognized.
    Mr. Coble [continuing]. The statement by Mr. Smith, the 
Ranking Member of the full Committee and the dear colleague to 
Members of the IP Subcommittee, dated March 6, 2007, and the 
chart to identify the 25 schools that have received the highest 
number of copyright infringement notices.
    Mr. Berman. In the music area, yes. Without objection, that 
will be included.
    [The information referred to is available in the Appendix.]
    Mr. Berman. Our first witness is Cary Sherman, known to 
many of us. He is president of the Recording Industry 
Association of America. As such, he coordinates the industry's 
legal, policy and business objectives and his responsibilities 
include technology, licensing enforcement and government 
affairs.
    In addition, and of particular relevance to this hearing, 
Mr. Sherman co-chairs the Joint Committee of the Higher 
Education and Entertainment Communities.
    Mr. Sherman received his B.A. from Cornell University and 
his J.D. from Harvard Law School.
    Sort of in the hot seat, I guess, for these purposes, John 
Vaughn is executive vice president of the Association of 
American Universities. Appointed in October 1996, he has 
specific responsibilities for intellectual property, 
information technology, research libraries and scholarly 
communication.
    Dr. Vaughn received his B.A. from Eastern Washington State 
College and his Ph.D. from the University of Minnesota.
    Our next witness is Gregory Marchwinski. He is the 
president, founder and CEO of Red Lambda, Incorporated, a 
company that markets collaborative grid technology, initially 
developed at the University of Florida, to control file-sharing 
on both peer-to-peer and local area networks.
    Mr. Marchwinski was formerly the executive manager of Sun 
Microsystems. He earned his B.S. from Carnegie Mellon 
University and his M.B.A. from Rollins College, School of 
Business Administration.
    And the final witness is from my hometown. He has to leave 
at 4:30 to catch a flight to L.A. If he is planning to catch 
the 5:52, he will not make it. [Laughter.]
    Jim Davis is both the associate vice chancellor of 
information technology and the chief information office at 
UCLA. In those capacities, Mr. Davis is responsible for the 
school's technology planning oversight and coordinates the 
school's IT policy. He received his M.S. and Ph.D. from 
Northwestern University.
    There were press reports on the notices received by UCLA. I 
would like to confirm that the reason you, Mr. Davis, were 
asked to testify is because, as compared to many schools, you 
are a leader in trying to address the piracy problem.
    Your written statements will all be made part of the record 
in its entirety. I would ask you to summarize your testimony in 
5 minutes or less. There is a timing light at the table, as 
many of you know. When 1 minute remains, the light will switch 
from green to yellow and then red when the 5 minutes are up.
    We welcome you.
    Mr. Sherman, why don't you begin.

   TESTIMONY OF CARY SHERMAN, PRESIDENT, RECORDING INDUSTRY 
             ASSOCIATION OF AMERICA, WASHINGTON, DC

    Mr. Sherman. Thank you, Chairman Berman, Ranking Member 
Coble, Chairman Conyers and Members of the Subcommittee. Thank 
you very much for holding this hearing today.
    This hearing will be the fourth conducted in as many years 
on the important topic of piracy on college campuses and the 
bipartisan commitment of this Subcommittee to address the issue 
of piracy where it is most rampant is appreciated by untold 
numbers of creators whose future depends on a legitimate 
digital marketplace.
    Progress has been made on this issue but not nearly enough. 
A recent study found that more than half of college students 
download music and movies illegally, and according to NPD, a 
market research firm, college students accounted for more than 
1.3 billion illegal music downloads in 2006.
    The college students surveyed by NPD reported that more 
than two-thirds of all the music they acquired was done 
illegally.
    The theft of music simply cannot be justified. We have 
transformed our business so that music is now available 
everywhere and anywhere, all the time. Whether online or on 
mobile phones, whether by download or subscription service, 
music has never been as accessible to fans as it is right now. 
And, in fact, our studies show that more music is being 
acquired than ever but less and less of it is being paid for.
    The ongoing piracy on campus is particularly frustrating, 
given all that we have done to address this issue. We have met 
personally with hundreds of university administrators. We have 
provided both instructional material and educational resources 
to help deter illegal downloading. We commissioned marketing 
campaigns in which students developed communication strategies 
to deter their peers from illegal downloading, and we are 
running their ads in student newspapers. We have spoken out at 
congressional hearings.
    Working collaboratively and productively through the Joint 
Committee of the Higher Education and Entertainment 
Communities, we have brought to the attention of schools 
network technologies that can inhibit illegal activity. We have 
licensed legitimate music services at steeply discounted rates 
for college students and helped to arrange partnership 
opportunities between universities and legitimate services.
    We have stepped up our notice program to alert schools and 
students of infringing activity. And we have, as a last resort, 
brought suit against individual file traffickers.
    On behalf of its member labels, the RIAA announced last 
week a new round of lawsuits, which include 400 students at 13 
colleges and universities around the country. We have also 
introduced a new program in which we encourage university 
administrators to pass our pre-lawsuit settlement notices on to 
students so that they have an opportunity to settle at lower 
cost before suit is actually filed and becomes a matter of 
public record.
    Lawsuits have always been a last resort for us, but 
deterrence is an essential element in any enforcement program, 
and it does make a difference.
    It doesn't have to be like this. We take this opportunity 
to once again ask schools to work with us productively to 
address a problem that affects us all. First, we ask schools to 
seriously consider implementing a network technical solution, 
like Red Lambda's cGRID or Audible Magic's CopySense, to block 
or filter illegal P2P traffic without impinging on student 
privacy.
    Second, we ask them to offer their students legitimate 
online services, like the ad-based Ruckus, that is free to 
users.
    Third, we ask them to truly enforce the law and their own 
policies against infringement for activity occurring both over 
the Internet and over the school's closed local area networks. 
This means ensuring swift and meaningful punishment when 
caught, not merely warnings which serve only as one free pass.
    Of course, we also ask them to continue any educational 
initiatives and remind them of resources available through our 
industry and the joint committee.
    We also ask them to consider, what are you doing to prepare 
your students for the digital future? This is not just about 
music and movies. This is about actively educating students on 
the rights and wrongs of online activity.
    The transition from physical to digital has completely 
altered the way we live our lives. Shouldn't these changes be 
reflected in schools' message to students? Colleges are charged 
with educating our citizens. Isn't it essential that they 
prepare them to use appropriately the technology that will fill 
their lives?
    If schools require more personal incentive to teach, 
consider the dozens of hacking incidents of the past few years 
in which IDs, reports and confidential records were stolen from 
school servers. None of us can afford to waste a teachable 
moment.
    And, by the way, I was delighted to read the testimony of 
Jim Davis at UCLA where he explained that this is precisely how 
they are viewing this issue. But what about the other 3,000 
schools in the country?
    We invite colleges and universities to work with us to help 
reduce the need for lawsuits like the ones we initiated last 
week. We invite them to reclaim the integrity, efficiency and 
legal use of their networks. We invite them to safeguard the 
value of intellectual property that defines them. And we invite 
them to step up as moral leaders to ensure that their students 
understand that stealing online is still stealing and to teach 
them how to be responsible citizens in the digital world.
    Thank you.
    [The prepared statement of Mr. Sherman follows:]
                   Prepared Statement of Cary Sherman
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Berman. Thank you very much.
    John Vaughn?

    TESTIMONY OF JOHN C. VAUGHN, EXECUTIVE VICE PRESIDENT, 
      ASSOCIATION OF AMERICAN UNIVERSITIES, WASHINGTON, DC

    Mr. Vaughn. Mr. Chairman, Ranking Member Coble, Members of 
the Subcommittee, I am testifying on behalf of AAU, the 
American Council on Education, the National Association of 
State Universities and Land-Grant Colleges and EDUCAUSE, and we 
appreciate this opportunity for me to be in the hot seat and to 
discuss the work of the higher education community on illegal 
file-sharing.
    We do take this problem very seriously. Illegal file-
sharing is unacceptable and challenges our obligation to 
educate students about the legal and ethical behavior that we 
hope to impart to them to make them good citizens.
    Five years ago, we joined with RIAA and MPAA to form the 
Joint Committee of the Higher Education and Entertainment 
Communities. Let me note just a few of the activities that have 
been carried out since that time.
    We distributed a white paper on the legal aspects of camps 
peer-to-peer file-sharing to 3,600 colleges and universities, 
and we updated and redistributed that paper last fall. We 
issued a report to colleges and universities on network 
management technologies that might assist in reducing illegal 
file-sharing. We distributed a report on legitimate online 
digital delivery services. Then we worked to bring together 
those services with universities in pilot programs. We reported 
on effective policies and practices identified by universities 
themselves for combating illegal piracy.
    Just last fall, we organized a meeting of campus IT 
experts, entertainment industry officials and commercial 
technology vendors to take an updated look at existing 
technologies that might be effective in blocking or filtering 
illegal peer-to-peer. These efforts and others have produced 
considerable progress. Now, over 80 percent of colleges and 
universities have institutional policies specifically 
addressing peer-to-peer file-sharing. Over 70 percent of 
institutions shape bandwidth by type of traffic to limit 
possible illegal file-sharing.
    Between 2004 and 2005, the number of universities engaged 
in legitimate digital delivery services nearly doubled. Ruckus 
Networks, Inc. announced just last week a 33 percent growth in 
subscribers in just the 6 weeks after it made available for any 
college student free music if they have a valid ``edu'' e-mail 
account. Ruckus now draws several hundred thousand students 
from more than 900 colleges and universities. This follows a 
move to an advertising-based business model prompted by data 
that was developed by the University of North Carolina, which 
was working with Ruckus and other vendors in pilot projects.
    Yet, it is fair to ask, why is the problem still existing 
on campus? First, I should note that illegal peer-to-peer file-
sharing is a ubiquitous problem; it is not unique to higher 
education. Students come to college with file-sharing practices 
already well-engrained. File-sharing is a widespread activity 
on commercial networks, collectively serving far greater 
numbers of customers than the 17 million college students we 
serve.
    This is not an excuse for higher education but simply to 
point out that illegal file-sharing is a widespread problem 
that no sector has been able to eliminate. But I would assert 
categorically that no sector has put in more time, effort or 
money in combating illegal file-sharing than has higher 
education.
    The rapidly growing use of legitimate peer-to-peer provides 
a major technological challenge. It is increasingly critical on 
campus to be able to distinguish between legitimate and 
illegitimate peer-to-peer. Blocking and filtering technologies 
that cannot make that distinction or require reading content to 
do so simply won't work on campus.
    So where do we go from here? Let me identify three 
immediate actions. In the area of technology, we formed a new 
technology group to work commercial vendors and entertainment 
industry representatives to foster new technologies designed to 
meet campus needs and their networks.
    In education, we have convened a group of campus officials 
to work with RIAA to revise a video they created for 
orientation last year to try to preserve a strong message and 
create a product that will be widely up-taken by our campuses.
    For university policies, we will conduct a broad survey of 
colleges and universities to develop a set of refined best 
practices to provide guidance to those institutions.
    These specific actions will be carried out against a 
backdrop of continued discourse and information sharing within 
higher education and continued collaboration with the 
entertainment industry.
    So I welcome Cary Sherman's invitation to us. We intend to 
follow through and continue our collaborations.
    There is no magic bullet, but we will continue to combat 
this problem by seeking to understand better what does work on 
campus and creating new tools to assist in our ongoing efforts.
    Thank you.
    [The prepared statement of Mr. Vaughn follows:]
                  Prepared Statement of John C. Vaughn
    Mr. Chairman and Members of the Subcommittee, I appreciate this 
opportunity to discuss the work of the higher education community to 
address the problem of illegal peer-to-peer (P2P) file sharing on 
college and university campuses. Higher education institutions and the 
national associations to which they belong take this continuing problem 
very seriously. Illegal behavior of any sort is not acceptable, and 
that includes illegal P2P file sharing. Beyond taking actions to 
prevent or punish illegal activity, higher education institutions have 
an obligation to educate students about legal and ethical behavior as 
part of preparing them to be good citizens. Moreover, as both producers 
and consumers of intellectual property, higher education has a direct 
interest in promoting respect for intellectual property and copyright 
law.\1\
---------------------------------------------------------------------------
    \1\ In 2005, AAU joined with the Association of Research Libraries, 
the American Association of University Presses, and the Association of 
American Publishers to produce Campus Copyright Rights and 
Responsibilities: A Basic Guide to Policy Considerations, which was 
broadly distributed to colleges and universities (available at http://
www.aau.edu/reports/Rights--and--Responsibilities--2005.pdf).
---------------------------------------------------------------------------
    Accordingly, when the higher education community was approached 
five years ago by the Recording Industry Association of America (RIAA) 
and the Motion Picture Association of America (MPAA) about their 
concerns with campus P2P file sharing, we were eager to work with them. 
Our mutual interest in addressing this concern led to the formation of 
the Joint Committee of the Higher Education and Entertainment 
Communities, and to the continuation and extension of the efforts that 
many colleges and universities already had begun to address these 
issues. Over the ensuing years, we have carried out a number of 
activities under the aegis of the Joint Committee designed to reduce or 
eliminate illegal P2P file sharing on college and university campuses. 
I have attached a list of actions taken by higher education since the 
formation of the Joint Committee; I will highlight here a few of those 
projects:

        <bullet>  White paper: in 2003, distributed a white paper on 
        the legal aspects of campus P2P file sharing, which was updated 
        and re-distributed last year,

        <bullet>  Network management technologies: distributed a report 
        on technologies that may assist in reducing unauthorized file 
        sharing,

        <bullet>  Legitimate online digital delivery services: 
        identified and reported on newly formed legitimate online 
        digital delivery services, and launched pilot project to bring 
        together legitimate services and universities,

        <bullet>  University best practices: distributed a paper 
        documenting university policies and practices for addressing 
        unauthorized file sharing, based on a survey of major 
        universities,

        <bullet>  Student education: cooperated with RIAA to review and 
        distribute a video developed by RIAA for use in college 
        freshman orientation sessions,

        <bullet>  Technology evaluation: organized a meeting of 
        university officials, entertainment industry representatives, 
        and network technology vendors to discuss and evaluate current 
        technologies that might be used to block or filter illegal P2P 
        file sharing.

    This meeting to evaluate network technologies, held last October, 
identified a number of limitations to those products, which were 
acknowledged by both university and entertainment industry participants 
and pointed to the value of universities working with technology 
vendors to develop technology applications adapted for higher education 
institutions rather than trying to force-fit products developed for 
other purposes. Therefore, we have established a new University Task 
Force on Requirements for Filtering Networks, which will work with 
entertainment industry officials and technology vendors to evaluate 
existing technologies and promote the development of new applications 
to improve campus control of network operations, particularly the 
unauthorized distribution of copyrighted content. This group is 
expected to have a report later this spring, and we hope that its 
findings will lead to cost-effective technological solutions 
universities can use to block or filter unlawful content traveling over 
their networks.
    Over the course of the five years since the formation of the Joint 
Committee, there have been numerous communications with campuses about 
the problem of illegal P2P file sharing and actions that can be taken 
to address it. These communications have taken the form of letters to 
campuses, presentations at meetings of national higher education 
organizations, and informal sharing of practices by colleagues across 
institutions.
    In addition to actions taken within the higher education community, 
I should mention the impact of RIAA's lawsuits. Since September 2003, 
the recording industry has filed more than 1,000 lawsuits against 
students at over 130 universities and colleges. University 
administrators recognize the right and responsibility of copyright 
owners to defend their content against infringement by lawsuits, when 
necessary; they also recognize that one effect of these lawsuits is to 
send a clear message to students that they are not operating within a 
protected bubble on campus, that illegal P2P file sharing constitutes 
copyright infringement, and that they are liable for such activity.
    Last week, RIAA announced a new round of lawsuits, which includes 
400 students and 13 higher education institutions. This campaign also 
will provide a ``pre-notice plan'' that allows alleged infringers to 
settle claims before a formal lawsuit is filed. A letter to colleges 
and universities from RIAA President Cary Sherman was transmitted 
broadly across the higher education community in a transmittal from 
David Ward, President of the American Council on Education.
    What has been the impact of this set of activities? It is clear 
that a great deal of progress has been made. I think it is safe to say 
that five years ago, few university administrators were aware of P2P 
file sharing technologies, the use of these technologies by students 
and the illegality of much of that use, and the implications of P2P 
file sharing for university networks. Although virtually all colleges 
and universities have long-standing campus policies governing the 
appropriate use of copyrighted works, many of these institutions had 
not updated and adapted those policies to the digital revolution 
generally and to P2P file sharing specifically.
    All that has changed. The 2006 Campus Computing Survey \2\ 
indicates that over 80 percent of colleges and universities have 
institutional policies that specifically address P2P file sharing. A 
2005 EDUCAUSE survey \3\ indicated that 73 percent of institutions 
surveyed shape network bandwidth by type of traffic to limit possible 
illegal P2P activity. Although more effective in identifying large 
movie files than smaller music files, this technology nonetheless was 
identified at last October's technology meeting as the most feasible 
current approach for addressing P2P file sharing.
---------------------------------------------------------------------------
    \2\ Kenneth C. Green, Campus Computing 2006: The 17th National 
Survey of Computing and Information Technology in American Higher 
Education, December, 2006, The Campus Computing Project, P.O. Box 
26242, Encino, CA. 91426-1242, www.campuscomputing.net.
    \3\ Brian L. Hawkins and Julia A. Rudy, EDUCAUSE Core Data Service: 
Fiscal Year 2005 Summary Report, November, 2006, EDUCAUSE, 
www.educause.edu.
---------------------------------------------------------------------------
    The EDUCAUSE survey also indicated that the number of universities 
engaging legitimate online digital delivery services had nearly doubled 
over the course of one year. Although the absolute number of 
institutions using these services remains small, this one-year growth 
is a very encouraging trend for a business venture that is itself only 
a few years old; the figures presented here were reported as of 
February 2006, only 15 months after the first such campus-based system 
was announced. Moreover, the engagement of legitimate digital delivery 
services is greater among larger institutions: 20 percent of research 
universities offer a legal digital delivery service, and more than half 
are in the process of engaging a service or actively considering doing 
so. Just last week, Ruckus Networks announced a 33 percent growth in 
subscribers to its college-only multimedia service in the six weeks 
since its announcement January 22 that its multimedia digital delivery 
service would be available free to any college student with a valid 
``edu.'' email account. The free delivery service, made possible by an 
advertising-supported business model, has drawn students from more than 
700 colleges and universities to the Ruckus program.
    Given the considerable efforts from both the higher education and 
entertainment communities, why does illegal P2P file sharing persist as 
a problem? What barriers exist to greater progress in reducing or 
eliminating this activity? First, I should note that this is a 
ubiquitous problem, not one unique to higher education. Students 
increasingly come to college with P2P file sharing experiences already 
well ingrained. Moreover, P2P file sharing is wide-spread on the 
commercial networks serving a great many more customers that the 
roughly 17 million colleges students served by higher education. This 
is not to excuse higher education but simply to point out that illegal 
file sharing is a wide-spread problem that no sector has been able to 
eliminate. But I also know of no sector that has put more time, money, 
and effort into combating illegal file sharing than has higher 
education.
    Yet cost can be a limiting factor in addressing P2P file sharing. 
at last October's technology meeting, the chief information officer of 
a major research university estimated that the cost to implement one 
proposed filtering technology would be over $1 million initially, with 
annual licensing fees of approximately $250,000. Such costs represent a 
serious financial challenge for colleges and universities, particularly 
at a time when we are trying to address the issue of rising costs of 
attendance for students.
    In addition, university policies governing academic freedom and 
student privacy come into play as necessarily limiting factors. It is 
essential for colleges and universities to maintain an open, unfettered 
environment for discussion, debate, and dissemination of information. 
Both research and educational programs increasingly use P2P 
technologies for exchange of information. Moreover, the adoption of 
legitimate P2P technologies and uses is expanding beyond higher 
education into the federal government and commercial sectors. NASA is 
using BitTorrent to distribute images and animations of the planet 
through its ``Visible Earth'' program; interestingly, it includes an 
answer in its Frequently Asked Questions to the following: ``I thought 
P2P and Filesharing were illegal!'' (http://visibleearth.nasa.gov/
faq.php). The National Science Foundation is funding the Ockham digital 
library project, a P2P-based system linking digital libraries, and it 
is clear that P2P applications will play a growing role in the 
distributed digital libraries of the future. Warner Brothers announced 
last year its intention to use BitTorrent to distribute movies and 
television shows.
    The rapid development of P2P applications supporting research and 
education will play an expanding role in this country's efforts to stay 
at the forefront of competitiveness and innovation, a goal for which 
there is strong bipartisan support in Congress.
    The use of P2P technologies for legitimate purposes heightens the 
importance of being able to differentiate legitimate and illegitimate 
uses for any technologies intended to block or filter illegitimate P2P 
file sharing. However, given the current state of technology, it can be 
difficult if not impossible to differentiate legitimate from 
illegitimate uses of P2P technologies without invading the privacy of 
personal transactions by reading content. That is something most of our 
institutions understandably refuse to do as a matter of principle.
    So where do we go from here? What are the projected activities to 
be undertaken by the higher education community? First, as noted above, 
we have formed a new university technology group which will work with 
the entertainment industry and commercial technology vendors to develop 
a methodology for improving the ability of campuses to control the 
unauthorized acquisition and distribution of copyrighted content. This 
methodology will encompass not only content from external sources but 
also from local area networks or LANs existing on campus. The results 
of this effort will be reported broadly to interested parties within 
the commercial technology sector as well as throughout the higher 
education community.
    Second, we are working with RIAA to consider revisions to the 
student orientation video produced last year. The original video 
generated criticism both from within higher education and from without, 
principally based on perceived inaccuracies or omissions in the message 
conveyed with respect to copyright law. We have assembled a group of 
campus general counsels and chief information officers to review the 
video and the criticisms of it and consider modification that will 
address legitimate criticisms while maintaining a strong message to 
students. The goal of this exercise is to produce an effective 
instrument that will be widely adopted within the higher education 
community.
    Third, we would like to conduct a survey of a broad selection of 
colleges and universities, covering all sectors, to identify what 
policies and practices are being used to address illegal file sharing 
and, in particular, to identify what procedures seem to be most 
effective in reducing illegal file sharing. Through this effort, we 
hope to identify an updated and refined set of best practices that can 
be widely shared within the higher education community.
    Along with these activities, the national higher education 
associations will continue to raise the issue of illegal P2P file 
sharing with out member colleges and universities and share information 
through meetings and written communications.
    Considerable progress has been made, both within higher education 
and within the new commercial sector of legitimate online digital 
delivery services. More work is needed. Our goal is to get as close to 
zero illegal transactions as possible, but we are dealing with changing 
human behavior; continually developing technologies and new challenges 
to them; new and adapting institutional policies and practices; and a 
nascent, evolving legitimate digital delivery service sector. These 
factors and forces are converging and moving in an encouraging 
direction, but they are complex components of the larger digital 
revolution; it will take resolve and shared purpose to work toward our 
goal. We intend to do precisely that.

    Mr. Berman. Gregory Marchwinski?

   TESTIMONY OF GREGORY J. MARCHWINSKI, PRESIDENT AND CHIEF 
          EXECUTIVE OFFICER, RED LAMBDA, LONGWOOD, FL

    Mr. Marchwinski. Chairman Berman, Ranking Member Coble and 
Members of the Subcommittee, on behalf of my Florida-based 
software company, Red Lambda, I thank you for the opportunity 
to speak with you today about digital piracy on campuses, a 
problem that we, as a company, have been working very hard to 
solve.
    As you may be aware, Red Lambda's technology was originally 
developed at the University of Florida, specifically to combat 
illegal file-sharing on its campus housing network. The success 
of that technology has been shared with this Committee in prior 
testimony.
    The two network engineers, along with myself, founded Red 
Lambda and have licensed and commercialized the technology 
using the name cGRID::Integrity.
    Let me be clear about the nature of the problem. Peer-to-
peer file-sharing is a disruptive technology enabled by the 
phenomenal growth in broadband access. This is even truer on 
university campuses where students have access to far faster 
networks than general population.
    There are several new technology trends in the peer-to-peer 
arena that are cause for concern. In the past, people would 
almost always share music and movie files in plain view on the 
network. Standard inspection technologies could tell what was 
being sent over the network. Recently, however, in an attempt 
to avoid detection, peer-to-peer protocols have begun to 
encrypt their files during transportation. This lessens the 
chance of users getting caught and renders watermarking 
technology useless.
    Fortunately, Red Lambda anticipated this trend and 
developed technology that is not dependent upon packet 
inspection and still effective when packets are encrypted. Red 
Lambda's approach is focused on the behavior of the peer-to-
peer protocol, not the particular movie or song that is being 
transferred.
    In addition to encryption, it is important to touch upon a 
more technologically subtle issue: Filing sharing on Darknets. 
In the university setting, Darknets operate at a local area 
network, a level such as in a building or dormitory. When two 
or more users on the same local network communicate with each 
other, the data never leaves the local area network.
    Prior to Red Lambda's technology, this activity remained 
largely undetected. Applications like MyTunes and ourTunes 
proliferated in this environment. These applications are hacks 
on Apple's iTunes system, which permits music to be copied from 
one user to another on these local area networks.
    cGRID::Integrity's underlying technology approach can 
blanket the entire network, including all local area networks. 
Darknet file-sharing can be detected and enforcement policies 
can be used to monitor and stop these protocols.
    Another underlying problem associated with the usage of 
peer-to-peer protocols is the distribution of malware, things 
like spam, viruses and worms. A 2006 study found that 15 
percent of the sampled executable files on one peer-to-peer 
network contain viral code with 52 unique viruses. Given the 
virus content, the blocking of peer-to-peer protocols on campus 
networks is an important consideration for network security.
    With cGRID::Integrity, network administrators can permit 
the use of particular peer-to-peer protocols at their 
discretion, ensuring a campus environment that stops illegal 
file sharers and allows academic freedom to thrive where these 
applications are used for legitimate educational purposes.
    I would like to stress to the Subcommittee and to the 
educational community at large that Red Lambda is absolutely 
committed to making the technology available to educational 
institutions at a price that is affordable and easily 
sustainable for university budgets. We offer a substantial 
discount structure for universities and stand ready to offer 
group pricing for associations wanting to purchase the 
technology for its member schools.
    Red Lambda has invested heavily in development areas that 
are important to schools so that our cGRID::Integrity solution 
can easily install in existing network environments without 
necessitating hardware purchases. Red Lambda has created an 
interface that universities can use to easily track and 
identify offenders. It is no longer a burden to track down file 
sharers and identify them.
    Schools implementing cGRID::Integrity will benefit on 
several fronts, the most important of which promotes 
consistency of principle and ethical behavior. Our universities 
are one of the countries most influential and prolific sources 
of intellectual property. Implementing our technology solution 
ensures that schools are spared the embarrassment and ill 
opinion associated with the careless disregard for digital 
intellectual property rights on their networks.
    I have provided in my written testimony a Red Lambda-
created policy guide that can be used by schools to develop 
effective peer-to-peer policies. The policy guide also gives 
examples of ways that schools can use Red Lambda's 
cGRID::Integrity to deliver educational content to the students 
and other network users based on our experience.
    Chairman Berman, Ranking Member Coble and Members of the 
Subcommittee, I would like to thank you for holding this 
hearing today and inviting me to speak on Red Lambda's behalf. 
I encourage you to exercise your influence to stem the rampant 
flow of digital piracy on campuses.
    [The prepared statement of Mr. Marchwinski follows:]
               Prepared Statement of Gregory Marchwinski
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Berman. Thank you very much.
    Jim Davis?

     TESTIMONY OF JIM DAVIS, ASSOCIATE VICE CHANCELLOR FOR 
INFORMATION TECHNOLOGY, UNIVERSITY OF CALIFORNIA, LOS ANGELES, 
                               CA

    Mr. Davis. Mr. Chairman and Members of the Committee, I 
appreciate the opportunity to appear before the Subcommittee 
again.
    When I spoke to this panel in 2004, I emphasized how 
seriously the University of California and UCLA take illegal 
file-sharing and copyright infringement. Over this time, the 
University of California has been collectively building on the 
experiences of each of its campuses. We remain as concerned as 
ever about how best to address digital piracy among college 
students.
    In 2004, I had described our plans to build a three-faceted 
approach involving enforcement, legal services and education, 
with the goal of using what we call a teachable moment for 
affecting student behavior. We did proceed with these plans and 
now refer to the overall strategy as the student life approach 
to copyright infringement.
    Let me begin my description of the UCLA student life 
approach by observing that we continue to see little digital 
piracy using our main campus resources. The great majority of 
infringement claims sent to UCLA are directed to the 
residential halls and, as such, are concentrated in only about 
20 percent of our total population, a figure that holds true 
across the UC system.
    Far more UC students live off campus, making them part of 
the vast majority who use commercial Internet service 
providers. We, therefore, believe that a student life approach 
has the greater potential for impact on the piracy problem and 
redirecting skills and undoing perceptions that students bring 
to the campus than just focusing on a technological fix for a 
small population.
    Our quarantine approach is the reactive enforcement part of 
our strategy, marrying full DMCA compliance with our campus 
judicial process to create this teachable moment.
    When a copyright infringement notification is received, the 
offending computer is quickly identified, put into quarantine 
so that the file-sharing is effectively blocked internally and 
externally, while access to on-campus student services is 
maintained. Services are restored as a function of the judicial 
process. Technology is used to significantly automate it, 
bandwidth shaping underpins management at the network level, 
technology does not involve monitoring of electronic 
communications, which is prohibited by UC presidential policy.
    Our primary metric for gauging the success of our strategy 
is the rate of repeat offenses. Since 2004, we have received a 
total of 813 infringement notifications for our residential 
campus population. Only 9 percent have proven to be second-time 
offenders, and the percentage of second-time offenders has 
remained relatively constant.
    Our analysis of both first-and second-offense cases has 
provided us with valuable input that we have used to adjust our 
judicial responses for both. For example, for second-time 
offenders, we recently strengthened the education component by 
requiring a technical evaluation of their computers to verify 
that the offending materials, along with all file-sharing 
software, are removed. This is based on our finding that 60 
percent of students remain ignorant about how file-sharing 
software works on their computers.
    We also require students to scan all multimedia files on 
their computer to evaluate whether they are still at risk.
    Sanctions are served in the unnecessary part of the 
judicial response. Repeat offenders are generally put on 1 
year's disciplinary probation with any further offense 
resulting in suspension. There have been two. We note that the 
possibility of not graduating or being rejected from a graduate 
school because of illegal file-sharing on an academic record 
causes significantly greater anxiety than the threat of paying 
fines.
    The availability of legal downloading alternatives is the 
second facet of the UCLA strategy. The University of California 
and the California State University systems formed a consortium 
to contract services from digital entertainment providers. 
UCLA's ``Get Legal'' campaign has garnered 20 percent 
participation from campus residents. However, this is a limited 
success story and is particularly disappointing considering the 
extensive local marketing efforts we have put forth.
    We see several reasons. Foremost, is the incapability of 
service with iPods. Downloads are unusable on the majority of 
students' portable players. Students are also significantly 
confused by legal nuance. For example, they have asked why they 
cannot acquire a television program through P2P methods 12 
hours after the program aired when they can legally record the 
program as it airs.
    The current business models are just not providing good 
answers for students yet. Until that changes, further efforts 
to promote these services can only make modest differences.
    The last and most overarching component of our strategy is 
education and awareness. I will only make the point that the 
real value of the student life approach we are seeing is the 
strengthen of weaving the piracy issue into the larger campus 
initiatives about core values and ethics.
    In closing, I want to emphasize that it is our student 
affairs organization that has taken the lead in integrating 
these facets into existing programs. We are encouraged by the 
student life focus, and I can reaffirm the fundamental premise 
of driving this effort as a student life issue rather than a 
technical issue.
    I will end with a quote from a February article in our UCLA 
newspaper. This is a quote from student who had just gone 
through the UCLA disciplinary process: ``Patricia said, after 
her disciplinary meeting, she does not intend to illegally file 
share again. `It is just like going to a restaurant or store 
and eating their food without paying,' she said. `I definitely 
see it as wrong now.' ''
    I thank you for this invitation to speak.
    [The prepared statement of Mr. Davis follows:]
                    Prepared Statement of Jim Davis
       a student-life approach to copyright infringement at ucla
    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to appear before the subcommittee today. When I spoke 
before this panel in 2004, I emphasized how seriously the University of 
California and UCLA take illegal file sharing and copyright 
infringement. As creators of intellectual property ourselves, we remain 
as concerned as ever about this issue. Copyright infringement, whether 
of software, books, journals or entertainment media, is a problem that 
we cannot and do not ignore. The question we continue to face is how to 
best address copyright infringement and digital piracy by college 
students.
    As an institution of higher education, several values are 
particularly important to us. Because academic freedom is partly 
dependent on privacy, by University of California presidential policy 
we do not monitor electronic communications. We are equally committed 
to our obligation to help prepare our students for their lives beyond 
their years here and to encourage the core values and ethics that will 
help them to be successful and responsible contributors to society. As 
such, our efforts in tackling the problem of digital piracy in our 
campus community are focused both on sustainable shifts in behavior and 
on addressing the immediacy of the issue.
    Besides adhering to our responsibilities as a university, we 
believe this emphasis on student life will have benefit to a broader 
community. We continue to see little digital piracy using the on-campus 
resources depended on by our 60,000 students, faculty and staff--
whether they be computer laboratories, library facilities or networks. 
Rather, most of the claims of infringement sent to UCLA are directed to 
the residential halls, where approximately 12,000 students live. Thus, 
claims of piracy on university resources are concentrated in only about 
20% of the UCLA community; this is true across the University of 
California system as well, with between 20-25% of campus communities 
using network resources involved in piracy claims. Far more UC students 
live off-campus, making them part of the great majority of students who 
use commercial Internet Service Providers to access information and 
services outside the University's purview. Hence, our efforts to affect 
behavior and to instill important core values and ethics in all of our 
students has the potential of a broader impact on the piracy problem 
than simply focusing on a technological fix for a small population in 
our campus environment, a population that is very small compared to 
that of commercial service providers.
    To be sure, we wish to address digital piracy on our campus. In 
2004, I talked about the ``teachable moment:'' taking a claim of 
infringement and turning it into an opportunity for affecting student 
behavior. It is in this regard that I am pleased to be here this 
afternoon. The University of California as a 10-campus system has been 
collectively building on the experiences of each of its campuses. 
Today, I am focusing on UCLA's student life emphasis in addressing 
illegal file sharing.
    Based on our three years of experience, I would also like to 
reaffirm that driving this effort as a student-life issue rather than a 
technical issue is key. In 2004, I spoke of UCLA's three-faceted 
strategy for addressing illegal file sharing, all toward the goal of 
shifting student behavior: the Quarantine, which uses automated 
technology to quickly route an allegation of copyright infringement so 
that it can be handled as a campus judicial matter, with the ``first 
offense'' treated as a teachable moment; a proactive push to offer 
legal online entertainment services; and an integrated educational 
campaign.
    UCLA's Student Affairs organization has taken the lead in pulling 
these three facets together and integrating them into its existing 
programs to imbue our students with a strong sense of ethical 
character, whether in the classroom or in a meeting with the Dean of 
Students. While taking the lead on this issue, Student Affairs has 
worked closely with information technology leaders to build effective 
and efficient processes, and with legal counsel to ensure compliance 
with the law.
          the ucla quarantine process and the teachable moment
    The reactive, enforcement part of our strategy for illegal file 
sharing remains the Quarantine process, which marries full DMCA 
compliance with our campus judicial process to create a teachable 
moment. When a copyright infringement notification is received, the 
offending computer is quickly identified and put into quarantine: that 
is, file sharing is effectively blocked internally and externally. 
However, access to on-campus student services such as library resources 
and registration is maintained, recognizing that an individual needs to 
continue to function in his or her educational capacity even as due 
process occurs. The automation involved in routing a claim of 
infringement to the residential halls and putting the proper computer 
into quarantine means that we can direct human effort where it is most 
needed: due process and education. Though this automation is not 
perfect and sometimes requires manual intervention, much is now 
automated and we continue to tune our algorithms to confidently 
increase the number of machine-handled cases.
    We believe one of the best metrics for gauging the success of our 
strategy is the rate of repeat offenses. Since 2004, we have received a 
total of 813 infringement notifications for our residential campus 
population. Overall, only 9% have proven to be second-time offenders. 
On a year-to-year basis the percentage of second-time offenders has 
remained relatively constant. In some cases, we observed absolute claim 
figures increasing, but feel this may be misleading. For example, we 
believe a substantial increase in graduate student housing since 2004 
(44%) can more than account for the rise in the number of first-time 
claims for graduate students. (Also, though we cannot draw any 
conclusions, during this same period, the proportion of RIAA 
notifications representing first time offenses has decreased--falling 
from 17% to 13% between 2004 and 2006--while claims related to video 
and TV media have increased. Anecdotally, we do see students surprised 
to discover that television programs, for example, cannot be shared 
legally, though they understand that music sharing is illegal.)
    Such analyses, and our extensive interviews for both first- and 
second-offense cases, have provided us with valuable input that we are 
using to improve the effectiveness of our judicial responses. For 
example, we have found that more than 60% of those identified in a 
second claim of file sharing did not understand that the software was 
still running or how to completely disengage it, one of many findings 
that dispel the common perception that students are technologically 
savvy (rather, they are technologically comfortable).
    Based on what we see, we are adjusting the process for first-time 
offenders to strengthen the educational component and even more clearly 
define what constitutes infringement. Later this year, we expect that 
those involved in a first-time situation will be directed to a website 
where they will view a short video developed by the University of 
Richmond Law School (http://law.richmond.edu/ipi/whatdoyouthink.htm) 
and then required to answer a series of questions culled from the 
content. Upon submitting correct answers, these students will be 
directed to a UCLA website that provides both an overview and 
explicitly states what is at stake in repeating the act of illegal file 
sharing. These students will then be required to acknowledge that they 
have completed the review and to reaffirm their personal responsibility 
in using campus computing services.
    For the second-time offender, we have also strengthened the 
educational component: they are required to attend an ethical decision-
making workshop and write a five-page paper covering any 
misunderstandings they have had regarding what file sharing behaviors 
are acceptable. There are also practical aids we provide: a mandatory 
technical evaluation of their computers to verify that the offending 
materials, along with all file-sharing software, are removed; and a 
list of all multimedia files on their computers so that they can 
evaluate whether they are at risk. Finally, there is a sanctioning 
component, where such repeat offenders are generally put on one year's 
disciplinary probation, with further offenses resulting in suspension. 
We note that for our student population the possibility of not 
graduating, or of being rejected by a graduate or professional school 
because of a sullied academic record from illegal file sharing, causes 
significantly greater anxiety than the threat of paying fines. This 
integrated series of requirements has proven effective, as we have had 
only two repeat offenders who committed further offenses, both of whom 
were suspended from the University for at least one academic quarter.
    We are looking at infringement cases in a more holistic sense 
judicially as well. A student may demonstrate patterns of behavior that 
indicate a need for help, and treating illegal file sharing as a 
separate issue is not always in the best interests of these students. 
By reviewing their behaviors holistically, we can help them identify 
underlying causes so they can make changes and continue to thrive 
academically.
              promoting legal alternatives to file sharing
    We believe legal alternatives are an integral piece of the effort 
to combat digital piracy. To bolster student appreciation for and use 
of legitimate sources of copyrighted material, UCLA has been part of a 
UC-CSU consortium to contract services from digital entertainment 
providers; we have contracted with CDigix, iTunes and Mindawn. Our 
consortium, with its combined student base across the University of 
California and California State University systems, is in talks with 
additional vendors as the landscape changes and new legal services that 
appeal to our students become available.
    At UCLA we market our legal services mix within an outreach 
campaign entitled ``Get Legal,'' which currently has 20% participation 
from a resident campus base of 12,000. We see ``Get Legal'' as a 
limited success story: successful in that our subscriber base is among 
the larger but limited with respect to overall percentage of registered 
students. The participation rate is particularly disappointing 
considering the local marketing effort put forth, which includes: 
resident hall signage and handouts, presentations at student government 
councils and at information and technology service fairs, quarterly 
advertisements in the student newspaper, highlighted presence on campus 
portal websites, and promotion by the Dean of Students Office at new-
student orientation sessions. The ``Get Legal'' campaign also maintains 
a visible and high-level presence online, with a campus website (http:/
/www.getlegal.ucla.edu) to assist students interested in subscribing, 
purchasing, troubleshooting and obtaining account assistance.
    Though an important component of our three-faceted strategy, it is 
clear that these online digital entertainment services remain 
problematic. First and foremost is the incompatibility with iPods 
(despite local marketing efforts, no UCLA student has signed up for the 
contracted ``CTRAX To Go'' portable player music service because of 
this incompatibility). However, our students also perceive these legal 
services to be limited in content, dependent on specific vendors or 
operating systems, and/or providing an uneven user experience. 
Generally, digital rights management means downloads are often unusable 
or non-transferable onto the vast majority of students' portable 
players.
    Students are also significantly confused by legal nuance. For 
example, they have asked why they cannot acquire a television program 
through P2P methods 12 hours after the program aired, when they can 
legally record the program as it airs or watch it for free while it is 
streaming from the broadcaster's website later that night. Or why, if a 
song is not available domestically through a legal service, it is not 
okay to acquire it through P2P (this has arisen from some of our 
foreign students). They also wonder why they have more rights with a 
purchased CD that can then be copied, sold or given away than a track 
or album purchased through a legal music service, and why downloads 
purchased online cost as much as or more than their equivalents in 
bricks-and-mortar venues, which they perceive as having significantly 
higher real costs, such as packaging and store overhead.
    Such concerns are not trivial to students. As creators of 
intellectual property ourselves, we understand the complexity in 
business models, particularly in a nascent area. But we also feel there 
are not good answers to give, because the business models are not yet 
viable. Until that changes, promoting legal services--while a critical 
component in moving forward on the piracy issue--will on its own result 
in only modest changes.
                        education and awareness
    At an institution where the currency is education, we strongly 
believe that informing students through education and awareness 
campaigns is the best way to make a sustainable impact on the issue of 
piracy.
    This education takes many forms in addition to those I have 
described. Student Affairs conducts workshops on copyright and ethics, 
meets with student leaders and student government councils about the 
consequences of illegal file sharing, and conducts open forums to 
discuss copyright and the state of entertainment in the digital age. 
Multiday orientation sessions for newly arrived students include Q&As 
with the Dean of Students on intellectual property theft. Anti-piracy 
flyers are posted within the residence halls and official communiques 
are sent to the student body: Digital piracy is a violation of the 
student conduct code: The University will discipline regardless of 
external legal proceedings or financial settlement. It is made clear 
that the University is not a safe harbor, and that we are powerless to 
assist students should lawsuits ensue. In fact, our entire education 
and awareness program is aimed at preventing a student from ever 
getting to that point.
    Though these individual activities are important, we see even more 
fundamentally the strength of weaving the piracy issue into larger 
campus initiatives about core values and ethics . . . in other words, 
into the student-life experience.
    All of these efforts, both individual and integral, generate 
discussions that are instructive, helping us both to fine-tune and give 
guidance to our outreach programs and practices. (For example, though 
we have a vast range of outreach initiatives for undergraduates, we had 
not previously focused on education of graduate students--something our 
increased graduate housing has brought to our attention.) We feel we 
have considerable room to grow in this area. A program used across the 
nation, dubbed ``Alcohol Edu,'' seeks to educate freshmen about the 
risks related to drinking and may provide ideas for a similar model.
                          the ethical student
    The development of our students is a concern of the entire 
University. Though affecting behavior requires a substantial investment 
of time and effort, we believe part of the institution's mission is to 
help prepare our students for their lives beyond our doors, and that 
this is a worthwhile investment. That is why we feel it so important 
that this be driven as a student-life issue rather than a technology 
issue. A purely short-term, defensive or technological solution does 
not afford any opportunity for a teachable moment, or for what we 
consider to be the greater possibility of sustainable changes in 
behavior. Our mission is not shared by organizations outside of the 
educational realm, so we recognize that short-term measures may be 
appropriate in other circumstances, particularly when the piracy 
problem is largely beyond the purview of educational institutions. But 
at UCLA, we are encouraged by what we have seen and continue to be 
enthusiastic about the student life focus.

    Mr. Berman. Thank you very much, all of you; very much 
appreciate your testimony.
    I would first like to recognize for 5 minutes the Chairman, 
Mr. Conyers.
    Mr. Conyers. Thank you very much.
    And I thank you all for your testimony. Many reappearances 
here.
    Let me inquire of the head of the RIAA people who oppose 
the use of technology to block or filter content argue that it 
invades privacy and could block legitimate content. How is this 
different, if it is, from antivirus technology, which is in 
common use?
    Mr. Sherman. Well, I think you have got it exactly right. 
It is very much the same as antivirus technology. The way that 
a virus program works is it compares the signature of a file 
with the signature in a database, and if the signature is in 
there it stops the file. That is the way filtering technology 
works in the copyright area as well. So we don't understand why 
there is a perception that somehow this is invading privacy.
    Furthermore, the applications don't even need to look at 
who sent it, or who is receiving it. All that they care about 
is whether it is the transmission of an unauthorized file in 
which case it is stopped.
    So we don't see this as a privacy issue, and we feel that 
universities could implement these kinds of technologies very 
effectively without infringing on anybody's privacy rights.
    Mr. Conyers. Thank you.
    Mr. Vaughn, do you think that this is a good way to go, 
that we could spread this practice among other universities?
    Mr. Vaughn. I think there is the sense that the current 
technologies have limitations, either in their clash against 
institutional policies, what Cary said about the non-invasion 
of privacy, to the extent that is true, then it ought to be 
able to be applied to peer-to-peer as well, but there are two 
other problems.
    One, as I mentioned, the necessity to be able to 
differentiate in any blocking technology legitimate and 
illegitimate. Legitimate peer-to-peer is a rapidly growing 
activity on campus that we want to encourage for research, for 
education. There are cost issues. One proposed technology that 
our group looked at last October would have cost over $1 
million to implement and a quarter of a million dollars to 
annually license. So these are things that we have to work 
through.
    But that is precisely the reason that we formed a new group 
that is going to meet next week, I believe, to try to take a 
look at this rapidly changing world of technology. And to the 
extent that we can find things that fit our policies, that are 
affordable, and what we really want to do is work with 
commercial vendors who have generally been developing their 
technologies for other markets and explain what we need, how 
our networks work, and see if we can get them to design 
technologies that work for us. So we are going to try to do 
everything we can to pursue that.
    Mr. Conyers. Does anyone else want to weigh in on this?
    Mr. Davis, I was going to ask you that cost seems to be an 
issue that universities are concerned with. Do you find that to 
be the case? How is the cost of your program?
    Mr. Davis. We would always be concerned about the cost, 
and, certainly, in the dollar figures that we are hearing, we 
would certainly take a very close look at that. But I would not 
state that as the primary concern, because if we did see this 
as the best solution for moving forward, then we would try and 
figure that out.
    Our concerns still remain around the policy and anything 
that gets very close to monitoring content. And we are 
concerned about the increasing legitimate use of peer-to-peer 
kinds of applications.
    We also are concerned about escalating technology 
approaches. As we go from one technique, we can move to others, 
and there are different ways to take these forward. And the 
other thing that I am trying to make a point non is that we do 
have a small population, and we are interested in putting these 
resources toward the educational piece, as much as these 
technical solutions.
    Mr. Conyers. Cary Sherman, in the joint committee 
activities, seems like we are off to a slow start. Haven't we 
got a best practices list instituted by all universities yet? 
How fast are we working?
    You know, after the fourth hearing, everybody is beginning 
to wonder if this is just scheduled once or twice a year to see 
how we are all doing but we don't even come to expect much to 
be happening anymore.
    Mr. Sherman. I think you have put your finger on it again. 
Progress really has been slow. I have to commend the leadership 
of the joint committee. Their heart is in the right place, and 
they are asking that the right things be done. But follow up 
takes a very long time.
    The Technology Task Force, for example, it was decided on 
November 1st that it meet, but that meeting has yet to happen, 
there has yet to be follow up on something that was agreed by 
everybody over 4 months ago. When we issued the white paper 
that John referred to, it took more than a year for the 
education community to approve a new draft. The original draft 
was out in a month or two, but it took a year for edits to come 
back for it to be reissued. Progress is very slow. We need much 
faster movement in order for the university community to get 
the sense that this is important.
    Mr. Conyers. Can we help in any way? Don't they respect the 
powerful Howards that we have here on the Committee? What is 
happening? Do we need to call them in? Do we need a hearing 
with the joint committee?
    Mr. Sherman. Well, we very much appreciate this hearing 
being held to convey the seriousness with which the Congress 
takes this issue, and we hope that that will help make a 
difference in terms of forward movement.
    The problem that we have got is that the university 
community at large, which John's views are reflecting on 
technology, for example, about academic freedom and so on, 
those are important values and we understand that, but programs 
like Ares and LimeWire, these are programs that are optimized 
for the exchange of movies and music illegally.
    They are not really being used for academic purposes. There 
is a theoretical possibility but not a real one. Nobody is 
using it for Shakespeare's sonnets or anything and it seems 
appropriate that when you are faced with that kind of a 
challenge----
    Mr. Vaughn. Aren't they still covered by copyright?
    Mr. Sherman [continuing]. That is why it would be okay; 
they are non-infringing.
    But the overwhelming, if not exclusive, use of these 
programs is for illegitimate purposes. And it seems appropriate 
for universities to reclaim their bandwidth, their own academic 
networks and maintain the integrity of their system.
    Mr. Conyers. Well, I just hope that the joint committee can 
get moving. I hope they will take this discussion to heart.
    Let me ask, finally, John Vaughn, is there some particular 
problem at Purdue, the signal offender in all of this, that we 
don't know about or that we should be sympathetic toward if we 
knew?
    Mr. Vaughn. Let me speak to that. I am aware of the quote 
that generated the attention, and I talked to folks at Purdue, 
and this really is a case of ``not fitting the actual story.''
    Purdue has a very good story to tell. They have a five-step 
process for treating offenders. They have 19 students on 
probation for the rest of this semester. They take this very 
seriously. They will go after offenders that they detect in 
their own monitoring processes. They don't wait to be notified 
from the outside.
    They have a variety of education methods: Advertisements on 
the student-run TV program, they use the RIAA video that was 
made last year, they have a legitimate delivery service, 
Cdigix, which, unfortunately, has decided to pull out of this 
business, but they have done about everything they can.
    So I am not here to be an apologist for Purdue but just to 
say that the quote that we heard doesn't indicate what Purdue 
is doing itself, how seriously it is taking this, more I think 
the attitude of higher education broadly.
    Mr. Conyers. Well, I am happy and pleased to get your 
response.
    Mr. Berman. Of course, Purdue was invited to testify, and I 
don't know if we can make reference to Purdue chickened out, 
but---- [Laughter.]
    Never mind.
    Mr. Vaughn. Were they here, perhaps I wouldn't have been.
    Mr. Berman. Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    As the Chairman said, we appreciate you all being here.
    Mr. Chairman, I empathize with your situation. If the 
universities don't intervene to stop piracy and students often 
times don't recognize they are violating the law, you would 
have little option other than initiating a lawsuit, bring in 
the lawyer. Bringing a lawsuit, however, is always the last 
step, or usually the last step, and can be unpopular.
    How do you determine, Mr. Sherman, when to take this last 
step, and do the university and students receive a warning?
    Mr. Sherman. Well, we have a notice program under which we 
have been sending--so far, this year, we have sent 50,000 
notices to universities alerting them to specific acts of 
infringement by users of their system. It was those notices 
that Purdue told the AP reporter they dump and that they don't 
even bother trying to track down and notify the student. That 
is why it attracted so much attention.
    So, yes, we give students and universities lots of 
opportunities to know about what is going on on their campus. 
But in order to make the point real, in order to show students 
that they really are at risk of consequences by engaging in 
this activity, we sue a number of them, and what we have 
announced is that we are going to sue a much greater number to 
increase the deterrent effect of the lawsuits.
    And we think it has had an impact on the general 
population. We have done surveys. The number one or two reason 
why people stop illegal downloading is fear of lawsuits. And we 
want to bring that same reality to university campuses.
    Mr. Coble. Thank you, sir.
    Mr. Vaughn, do you have evidence that the number or 
economic value of digital piracy on college campuses has 
declined at any point during the past 5 years?
    Mr. Vaughn. I don't have systematic data, Mr. Coble, but I 
have heard a number of reports from campuses that track this 
and that have identified a declining number of DMCA notices. 
Those that track this closely, in many cases, can attribute it 
to policies that they have taken.
    That is one of the reasons I think that it is so important 
for us to survey these campuses and identify those that have 
been successful in reducing it, look analytically at what 
procedures they are taking so that we can identify a new set of 
best practices and publicize that broadly.
    I do think that the lawsuits have an impact, and we have 
talked about this in the joint committee. Students talk to 
students, and one of things that our administrators on campus 
have been dealing with, struggling with, is this sense students 
have that once they are on campus they are in a bubble and they 
are immune from the outside world.
    And when a lawsuit comes in, it tells them that copyright 
infringement is wrong, illegal file-sharing is wrong, and they 
are going to be held liable for those activities. And that word 
reverberates.
    Mr. Coble. Thank you, sir.
    Mr. Marchwinski, let me put a three-part question to you. 
Approximately, how many colleges and universities use your 
software, A; B, is it expensive; and what great obstacles do 
colleges and universities assume or face if they choose to use 
a software program that will help prevent piracy?
    Mr. Marchwinski. We currently, through our 
commercialization effort, the software is in production at the 
University of Florida where it was developed. We are working 
with three other universities on the implementation of the 
product right now in an early adopter format, and we have 
scheduled implementations in April for several other 
universities across the country.
    As far as expense goes, our pricing model is one that is 
based on a per user, per year licensing structure, and we 
discount very heavily for the educational space, knowing that 
there are budget constraints and such. We actually will work 
with small institutions to make it very affordable. We don't 
try and gouge anyone. We actually want to address the problem.
    And as far as obstacle goes with the implementation, one of 
the biggest challenges we have with the software solution is 
when you are implementing a tool into a network, the soundness 
of the underlying architecture of the network needs to be 
evaluated.
    If you have a network that is a hodgepodge of devices that 
were slapped together as a university grew quickly, it is 
harder to implement a technology solution in that environment. 
If it was well-managed and has grown under a logical plan, it 
is very easy to implement in that environment.
    Mr. Coble. I got you.
    Thank you, sir.
    Mr. Davis, let me put a question to you before that red 
light illuminates in yours and my eye. Commend UCLA for what 
you have done, but has much of the anti-piracy effort at UCLA 
depended upon the anti-piracy software, and how much has 
depended upon your faculty and administrators and maybe even 
members of the student body?
    Mr. Davis. The real point on our software is that, from a 
technological standpoint, it really is a mechanism to bring 
together the DMC response with the judicial process. So the 
answer to your question is, it is our judicial process that it 
is in play here, not the software.
    So when I look at it from a judicial process standpoint, it 
gives us the opportunity to bring different situations as they 
occur to our dean of students and bring the students in 
discussion with those people and then bring it into more 
comprehensive programs. That is what we see as working, and 
that is also where we are getting our data, from the students 
directly, as they talk with the dean of students.
    Mr. Coble. Thank you, sir.
    Thank you all.
    I yield back, Mr. Chairman.
    Mr. Berman. Thank you very much.
    The other gentleman from North Carolina?
    Mr. Watt. Thank you, Mr. Chairman. I thank you for having 
the hearing, first of all, and I am delighted to be on the 
Subcommittee. This is my first time here also, because I had to 
miss the first hearing. So this is my first official activity 
on this Subcommittee, so I am delighted to be here.
    Mr. Vaughn, my ears perked up when you mentioned something 
that was going on at the University of North Carolina, which 
happens to be where the two of us are from, and I didn't 
understand what you were saying was going on at the University 
of North Carolina, so let me get a little clarity about what 
that was.
    Mr. Vaughn. What I mentioned was that we, early on, tried 
to identify new, legitimate online digital delivery services, 
pair them up with universities in pilot programs to try to get 
these two groups working well together. Molly Broad, under her 
leadership, as president of the University of North Carolina 
system and also, incidentally, as an active member of the joint 
committee, went back to the system and said, ``Let's implement 
a broad set of experiments across campuses.''
    So they had different campuses working with different 
vendors, using different policies. All of them used the same 
sort of three-part structure that Jim Davis mentioned of 
education, enforcement, using new alternatives, but what I 
mentioned was that data collected by the University of North 
Carolina in its pilot program fed to Ruckus and gave Ruckus the 
basis for moving to an advertising-based business model, which 
then allowed them to offer music free to students, any student 
that had an ``edu'' valid e-mail.
    And Ruckus announced last week that they have had a 33 
percent growth in the number of subscribers since they made 
this program available. And that was fed by this interplay 
between Ruckus and the University of North Carolina. So it was 
one of these productive interrelationships that has really 
helped to advance this.
    Mr. Watt. I understand most of the schools in the 
University of North Carolina system are tied into this Ruckus 
system. Is that working effectively?
    Mr. Vaughn. I think it is working very effectively. They 
are actually working with four different vendors, but I believe 
Ruckus is the dominant one, and it is used on, I think, just 
about every one of their campuses.
    Mr. Watt. It seemed to me that despite the fact that you 
and Mr. Marchwinski are sitting side by side, that you all are 
miles and miles apart in terms of what you were saying. I took 
from what Mr. Marchwinski was saying that there is technology 
coming online that is going to--or is maybe already online--
that could really solve a lot of these problems.
    So let me ask the two of you, first of all, Mr. 
Marchwinski, I noticed that you went out of your way not to 
talk too much about the cost of this system, and Mr. Vaughn 
talked about a system that would cost the university in the 
neighborhood of $1 million with a royalty fee or renewal fee 
every year of about $250,000.
    You obviously are not all that interested in talking about 
the specific cost, but are we anywhere in the ball park that 
made Mr. Vaughn shutter, the $1 million figure, or is that far, 
far, far away from where you are talking about?
    Mr. Marchwinski. Far, far, far away from what I am talking 
about. When you look at our cost structure and the way that we 
discount it in the university space, we are literally talking 
about cents per under $1 per month, per student to use our 
technology. It is discounted substantially into that sector.
    Mr. Watt. Well, let me see, if I multiplied $1 per month, 
per student, that is $12 a year, multiplied times the number of 
University of North Carolina, that could be a fair, fair amount 
of money.
    Mr. Marchwinski. That is a suggested retail price, which we 
discount from.
    Mr. Watt. Okay.
    Mr. Marchwinski. It is based on volume. We can actually 
reduce that significantly.
    Mr. Watt. Mr. Vaughn, maybe I should allow you the 
opportunity to tell us about some of your concerns or downsides 
about what Mr. Marchwinski testified about.
    Mr. Vaughn. Well, let me say, first of all, the costs I 
mentioned was for a different technology, so I was not 
referring to Greg's technology. Greg was part of the meeting we 
had last October. Our concern at the time----
    Mr. Watt. You are cheating. You get to call him Greg. I had 
to----
    Mr. Vaughn. Well, we have worked together----
    Mr. Watt. I am joking, go ahead.
    Mr. Vaughn. That technology can't distinguish between 
legitimate and illegitimate peer-to-peer activity, but he has 
mentioned that there have been developments and refinements. 
This is something we want to look at, and that is precisely why 
we have this new committee to understand--this is a very 
rapidly--this technology is changing so rapidly, so what we saw 
in October may be different now.
    I must say that just yesterday EDUCAUSE had a live Webcast 
featuring Illinois State, which is a university that has been 
working very closely with RIAA and MPAA on a whole range of 
options to try to deal with illegal file-sharing. They are 
looking at technology, at education, at enforcement. They are 
doing us all a very good service of looking at this. And it was 
their sense yesterday that we still don't have a technology 
that works, but we may be getting closer, and we are going to 
keep looking at that.
    Mr. Watt. Thank you, Mr. Chairman.
    Mr. Berman. The gentleman from Florida, Mr. Feeney?
    Mr. Feeney. Thank you, Mr. Berman.
    And we are glad for all the witnesses who are here. This is 
a very important issue to the Congress.
    Mr. Vaughn, I was glad to hear the defense of--I am a 
fellow Big 10 guy, I am from Penn State, and glad to hear that 
Purdue is performing better and that blue mark doesn't really 
represent their activity and their interest in protecting 
intellectual property. You would think a great technological 
university would have a particular understanding of the 
importance of intellectual property, and that is good to know.
    I know that professors who right the textbooks on a regular 
basis understand intellectual property when it has to do with 
the unauthorized copying or use of their textbooks, and I would 
hope that the joint committee appreciates that a lot of us in 
Congress believe deeply that, yes, the mission of every great 
university is to pass on academic excellence, but also 
citizenship standards and character building ought to be a 
great part of the university experience.
    I was glad to hear, even though it is anecdotal, about 
Patricia's experience. She learned a great lesson going through 
college, and I am afraid for the university students who are 
learning the opposite lesson, that the way to go through life 
and enjoy the music or art or literature of whatever of your 
pleasure is to get technological astute and to be able to, 
essentially, be modern-day pirates, even though they don't look 
at it like that.
    And, I guess, finally, Mr. Vaughn, I would encourage you, 
if 80 percent of the universities have adopted a policy, that 
means 20 percent have yet to even try or at least think about 
it in a serious way, and then enforcing the policy is critical 
too.
    I mean, China has pretty good laws on the books with 
respect to protecting intellectual property. It is the 
horrendous job they do enforcing it that leaves Mr. Sherman's 
companies and many other U.S. companies totally exposed so that 
somewhere on the order of 80 to 90 percent in some areas of 
technology and music and video is pirated use in China. So the 
enforcement is critical, and that is why I am so interested in 
the technological issues.
    Mr. Marchwinski, are you able to tell some of the three 
universities that you are moving into here in the next few 
months or expect to? You don't need to if you don't want to.
    Mr. Marchwinski. Actually, can't tell you about those right 
now until they actually----
    Mr. Feeney. Very good.
    Mr. Marchwinski [continuing]. Release the actual names out 
into the press.
    Mr. Feeney. Well, very good. I happen to know of a couple, 
and I am delighted to hear those.
    Mr. Vaughn, had some legitimate arguments, and Mr. Davis 
did too, and I would like you to address them specifically.
    Number one, on the cost argument, and I don't want to do 
your negotiating for you anymore than the former gentleman from 
North Carolina did, and since we fund universities, as a former 
State legislator, we fund universities, I want to see good 
taxpayer value for anything that universities are purchasing.
    But are you a monopoly? Are you the only company that is 
doing this work in the industry?
    Mr. Marchwinski. No, absolutely not. There are many 
providers out there, some that have grown up in different 
sectors of industry, work management----
    Mr. Feeney. Good. The more the merrier. Hopefully, there 
are lots of competent companies. It may be bad for you, but it 
is good for a pricing mechanism that will meet the needs.
    Mr. Vaughn, I think fairly, said that there are lots of 
legitimate peer-to-peer uses that he is afraid some 
technologies would be undermined. Does your current technology 
have the ability to save legitimate and authorized peer-to-peer 
uses while stopping pirating?
    Mr. Marchwinski. We have enabled peer-to-peer protocols 
based on a set of policies that the administrator in that 
institution implements.
    Mr. Feeney. And Mr. Davis talked about the strong interest 
every great university has in privacy and academic freedom. 
Does your technology preserve privacy and academic freedom?
    Mr. Marchwinski. Yes. We actually don't look at the content 
of the packets because of that key concern.
    Mr. Feeney. And it seems to me the one argument that is 
going to be difficult for the technology proponents to meet is 
Mr. Davis' legitimate one, that about 80 percent of his 
students reside off campus. Certainly, that is true of a lot of 
universities. You are talking about on-campus computer networks 
so that off campuses could be very difficult, if not 
impossible, to get to with your current technology; is that 
right, too?
    Mr. Marchwinski. That is correct. There is one thing that 
can be done in the wireless networks that are available for 
drop-in students. An effective policy can still be put into 
place on those networks. So even transient schools or community 
colleges who have no permanent residents there can effectively 
put a policy in place.
    Mr. Feeney. Well, and finally, I want to recognize the 
joint committee who has been chaired recently by the president 
of my alma mater, Graham Spanier. He has done a terrific job at 
Penn State, and now the president of Maryland will take over.
    And I hope that while we have made some progress, as Mr. 
Vaughn and Mr. Davis point out, in 5 years, I hope that 
everybody will understand just how critical this is, both in 
preserving intellectual property rights but just as importantly 
in building character and strong citizens.
    One of the complaints about our prison system in America is 
we tend to send people to prison and they tend to come out more 
expert thieves, and I hope we will not be saying that about our 
university students with respect to intellectual property 5 or 
10 years hence.
    With that, I yield back the balance of my time.
    Mr. Berman. I thank the gentleman.
    The gentlelady from Texas is recognized for 5 minutes.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Let me thank you. 
Looks like we are going down a path of innovativeness, and I 
thank you very much for your leadership. I think it is 
important to address issues--I am a new Member of the 
Committee--but address issues to maybe weave our way through a 
legislative fix or maybe some helpful suggestions.
    I happen to agree with Mr. Sherman. I, frankly, believe 
that colleges have not done enough. And I have a college 
student, and I have a number of college campuses in my 
hometown, and I am always eager to be supportive with as much 
information as one could possibly give.
    It is interesting, I don't know how many, Mr. Sherman, 
students are doing their final thesis or taking an exam on the 
most recent music notes that they are drawing down, but I am 
sure some would argue that this an educational factor, but I 
don't know how many professors are testing folk on the latest 
brilliant work of, I think, Lil Wayne or Jay-Z.
    So I am curious because I believe that inquisitiveness 
should be applauded and certainly the kind of unique expertise 
that college students have developed because they are children 
of the 21st century and children of technology. It hurts my 
heart that many do not pick up a book but would rather see it 
digitally and however else they might get it.
    So I am going to pose a question to both Mr. Vaughn and Mr. 
Davis, just to comment on this issue of campus piracy. And I am 
not going to say it is a big problem, because I don't want to 
label the whole, if you will, it is not an industry, but the 
whole community, whole academic community, whole community of 
higher learning institutions.
    But if it is a problem, and if it is widespread or its 
growing, is there some thought to charging students a fee, akin 
to your student activities fee, enhancing it, and finding some 
set fee to pay as relates to the downloading of money and send 
those dollars to the artist or their royal representative?
    Because it seems to be an ongoing issue. And, of course, 
you just made mention that Purdue is trying to work through it 
or other universities are trying to work through it. I don't 
know if we are going to find a common ground.
    We have been through these questions before about 
protecting the work of artists. We have been through it before, 
from my perspective, from, I would say, the aging artists, the 
artists of the 1960's, Motown and others who talk about it on 
radio and whatever else, those old days when they started 
talking about and now they are using it for advertising and 
otherwise and not paying them any royalty. Now, we have, sort 
of, a next step.
    But have you thought about any way of compensating, some 
structural way of compensating which way, if you will, put a 
stop gap to Federal legislative fixes?
    And I ask Mr. Vaughn and Mr. Davis.
    Mr. Vaughn. Well, there are two dimensions to a fee, 
Congresswoman.
    First, the sort of fee I believe you are talking about is a 
fee that might be akin to the way that artists are compensated 
for music in restaurants and other big public places where you 
can't put a fee on a single transaction and there are 
compulsory licenses that are negotiated by BMI and ASCAP and it 
is very complicated, but it has been reasonably successful over 
decades, and there have been proposals that that might be one 
of the ways to deal with peer-to-peer file-sharing as well.
    That wouldn't be a university issue; that is a nationwide 
corporate issue, and Cary can speak to this. I think that RIAA 
and MPAA don't like that. We are neutral on it.
    The other aspect of a fee is charging students a fee for 
the music, and this is something we have talked about in 
working with the legitimate delivery services. iTunes has 
managed to 99 cents per song, and it is wildly successful. Most 
of our universities that are working with legitimate delivery 
services--and there is a cost to that--try to make it something 
other than a song per transaction fee to the student.
    So the university might cover the full cost outright. It 
might be embedded in a student fee per semester, but our 
concern is that if there is a fee per transaction for 
legitimate services and it is up against illegal free 
transactions, it makes it easier for illegal to outcompete 
legal.
    Ms. Jackson Lee. Mr. Chairman, if you would indulge me, I 
was watching that green light steadfastly and it never went to 
the middle light. I would appreciate if I could get the 
panelist I asked to answer, Mr. Davis.
    I would appreciate it, Mr. Chairman, if----
    Mr. Berman. Mr. Davis, could you answer?
    Ms. Jackson Lee. And I would appreciate--could Mr. Davis 
just yield for a second? If Mr. Sherman could just say a yea, a 
nay or a sentence, then I will go to Mr. Davis, because he has 
been referred to by, ``don't like it,'' but what is your fix or 
is that something we can reasonably talk about?
    I am not wedded to the structure; I am wedded to the 
concept.
    Mr. Sherman. The industry has concluded that if we can give 
it away for free, it has to feel like free, and, therefore, we 
have granted licenses to companies offering college students 
access to 2 million, 3 million tracks of music on demand at 
such low prices that they are a fraction of what is offered in 
the commercial marketplace.
    Ms. Jackson Lee. Does the university buy it or a company 
buys it?
    Mr. Sherman. It can go either way. At Penn State, they paid 
for it, and they have it in their budget and offered it to 
students and it had a very good take-up rate. At other 
universities, they charge each student for it, and that becomes 
more difficult.
    We are talking about a couple of bucks a month, even for a 
student paying for it himself, for all the music that they want 
legally.
    Ms. Jackson Lee. Mr. Davis, thank you.
    Mr. Davis. Our thinking has been tied with what I referred 
to in the verbal testimony with the business models, and so we 
have gone down the path of what is the right model for the 
student.
    And so I do want to come back and make the point that one 
of the things that we are seeing is the existing models, the 
legal services, are not providing good answers for the 
students. And so we really see that as a major thing to take a 
look at, and if that can be resolved or changed and so forth, 
we get ourselves actually set up in a much, much better 
position to talk about the fee or the funding of this.
    Ms. Jackson Lee. Thank you.
    Mr. Berman. The time of the gentlelady has expired.
    Mr. Davis, we are going to excuse you now. Based on my 
comment, you have revised your time of departure to 4:15, and 
you are still going to have a close call if it is the 5:52.
    Mr. Goodlatte?
    Thank you for coming, and if there are specific questions 
for you from any of the Members, I assume you would be prepared 
to respond in writing to those questions.
    Mr. Goodlatte. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I appreciate the testimony of all the witnesses.
    Mr. Vaughn, I believe that gathering facts about current 
practices that colleges and universities are using to combat 
privacy is extremely useful.
    Would you commit to helping encourage colleges and 
universities to comply to requests for information about their 
efforts on this front so that Congress can make some informed 
judgments about the best next steps to take here?
    Mr. Vaughn. Mr. Congressman, there may be a reference there 
to the GAO study that was carried out last year, and in that 
study, we and our allied associations all initially strongly 
encouraged participation, but when we learned that, contrary to 
the usual practice in those sorts of studies with higher 
education, GAO was not going to preserve anonymity of 
individual institutional data, we informed the campuses of 
that, and that caused a drop in the rate.
    And I understand that there is interest in having 
information on specific universities, but there is also a 
concern about how data would be used, how it would be 
interpreted. There are widely different views about what 
technology is effective or not effective, and if you have a 
view of technology A and university B isn't using it, then that 
gives a certain slant to that institution.
    What we would like to do, and whether we do it or GAO does 
it, is get a broad survey of institutions. We can preserve 
institutional anonymity of data but still collect by sector to 
understand what is happening in large institutions, small 
institutions, community colleges versus research universities. 
We could look at analytic questions about not just technologies 
but----
    Mr. Goodlatte. Let me cut you off there. I take it that is 
a yes, with conditions.
    Mr. Vaughn. A yes, with conditions.
    Mr. Goodlatte. I have got some other questions I want to 
ask you, so let me move on to those. I have introduced 
legislation and plan to soon reintroduce legislation to combat 
the use of spyware on users' computers, which is used to 
collect personal information.
    Now, as you know, many file-swapping technologies either 
include spyware programs or are used by hackers to install 
spyware programs onto users' computers. Given the recent swath 
of data breaches, are universities concerned that illegal file 
swapping could contribute to data breaches on their own 
systems, which contain personal information about students, 
parents, alumni?
    Reflective of your concern about who has access to 
information that you mentioned in your last answer, what are 
universities doing to prevent these types of breaches from 
originating through file-swapping technologies?
    Mr. Vaughn. Well, one of the things that we try to do in 
education programs is to make clear to students what a great 
risk these illegal file-sharing technologies bring to the 
students, their computers and to the whole system. That is a 
very serious problem. So it is one of the motivations, both to 
try to educate the student so it is a deterrent for them but 
also for us to try to protect our systems.
    As I understand, I am not a technology expert, it is hard 
for the network manager to get direct control over that, but it 
is a serious problem, and we are doing everything we can to try 
to combat that sort of degradation that potentially comes with 
illegal file-sharing.
    Mr. Goodlatte. Well, let me ask you about that, and I will 
ask Mr. Sherman about this too. I just have become aware of 
some technology. One of the reasons for this hearing is for us 
to look at enforcement efforts and technologies that are 
available to colleges and universities--I know Mr. Marchwinski 
is certainly interested in that as well--to stop illegal P2P 
file-sharing.
    I am aware of some technology that claims to stop virtually 
100 percent of illegal peer-to-peer transmissions while 
allowing legal peer-to-peer transmissions to continue by 
looking for certain markers and so on in what is being 
transmitted that would indicate whether or not it is 
copyrighted or not. It would not interfere with legal P2P 
transmissions continuing, which I know is a great interest of 
the universities.
    It would also maintain user anonymity, not use additional 
bandwidth or slow down the network and not require technical 
staff support.
    I wonder, Mr. Sherman, are you aware of technology like 
this? Have you looked into it? Are you interested in that sort 
of thing?
    Mr. Sherman. You might be referring to SafeMedia's Clouseau 
product, which came to our attention yesterday. We have asked 
them to brief us on it, and we would certainly want to bring 
them before the Technology Task Force for this technology to be 
evaluated.
    I think what this illustrates is how quickly the 
technologies are coming online in this area, and the 
opportunities to take advantage of technology are real. We just 
have to have an open mind to exploring the benefits of 
technology here rather than rejecting it outright.
    Mr. Goodlatte. Mr. Chairman, I know my time is expired. I 
wonder if I might ask if Mr. Vaughn would answer the same 
question in light of whether his association would be 
interested in--I am not endorsing any particular technology but 
when I become aware of technology that might solve your problem 
and the problem that the Congress is trying to address, I would 
like to know whether that is something you would be looking at?
    Mr. Vaughn. Absolutely. I thought what you were describing 
sounded a lot like Audible Magic to me, which has a lot of the 
properties you described. It is very expensive, and it has to 
be implemented across every switch. But precisely because 
technology is changing rapidly and we have a real interest in 
that, if we could identify a technology that is affordable, 
that can differentiate legitimate from illegitimate, that 
doesn't invade privacy or read content, we would jump at that.
    Mr. Berman. The time of the gentleman has----
    Mr. Goodlatte. Thank you.
    Thank you, Mr. Chairman.
    Mr. Berman [continuing]. The time of the gentleman has 
expired.
    The gentleman from Florida, Mr. Wexler?
    Mr. Wexler. Thank you, Mr. Chairman. I, too, want to thank 
you for conducting this hearing.
    I was wondering if I could inquire of Mr. Vaughn. My 
understanding is, if I have got it right, that MySpace and 
YouTube are--they didn't start here but they have moved to a 
point where they are beginning to filter out copyright works. 
They didn't always conclude that was their obligation, but it 
seems to me, if I understand it correctly, they are moving in 
that direction.
    And I was wondering if you could share with us whether or 
not universities and colleges are doing the same.
    Mr. Vaughn. Well, we don't have the same issue that--I 
think that would be analogous to material that would be 
residing on our servers, and we have an absolute obligation to 
make sure that we are not infringing or we would be sued in 
that case. So we take that part very seriously.
    But with peer-to-peer technology, which is conduit traffic 
that doesn't directly reside on our servers, we have a 
different problem. We are trying to do everything we can to 
avoid illegal file-sharing, which is analogous to YouTube 
putting up some copyrighted material without permission, which 
is not acceptable.
    Mr. Wexler. Could you share with me in your testimony--and 
I apologize, I didn't hear your oral testimony--in your written 
testimony, you cite the 2006 campus computing survey, which 
indicates 80 percent of universities and colleges now have 
institutional policies that specifically address file-sharing.
    Share with me, I am a freshman at X college, one of these 
80 percent colleges, and I show up, big van and all of the 
packages, and I get my meal card and move into the dorm. What 
process occurs in these 80 percent colleges to that new 
freshman to make that freshman aware of these university's 
policies?
    Mr. Vaughn. One of your colleagues just brought up earlier 
the difference between having a policy and activating and 
enforcing a policy, and so, frankly, my guess is that the range 
of ways that that 80 percent deals with that policy is fairly 
large.
    But what is increasingly happening is that when freshman 
get on campus, this is a central part of their orientation. 
They are informed about the policies. We are going to work with 
RIAA to try to get a broader uptake of a video that will kind 
of catch their attention so that they learn about the policies. 
An increasing number of institutions will ask them to sign an 
acceptable use agreement.
    And I should say that our campuses have, for decades, had 
acceptable use policies dealing with copyrighted material, but 
I would say 5 years ago not very many of them had that 
translated specifically into peer-to-peer file-sharing. Now, 
what they have a copyright policy that is specific to file-
sharing to make it available to students when they come in. 
They inform them that that is going to be enforced, and when 
they are detected violating that policy, the sanctions come 
into play.
    Mr. Sherman. If I could just add to this. When we did our 
orientation video, we did surveys pre and post in order to see 
the effectiveness of the video, and what we found was that 
although many of the universities had these policies, students 
simply weren't aware of them. The video helped reinforce the 
notion that this is against campus policy and they could lose 
Internet access if they engaged in illegal activity. So the 
policies may be there, but people just don't know about them.
    Mr. Wexler. Would you agree, Mr. Vaughn, that it appears 
students, by and large, are not aware of the policies?
    Mr. Vaughn. Well, I think that has been the case, and that 
is what is changing, and we want to take actions to make it 
change further. That is why we want to identify these best 
practices. At a large university, with a lot going on and 
students coming in for the first time, there is a lot going on, 
but institutions have figured out how to get this message 
across, and we want to spread their message across the higher 
education community.
    Mr. Wexler. Thank you.
    Mr. Berman. The time of the gentleman has expired.
    The gentleman from Florida--the other gentleman from 
Florida.
    Mr. Keller. Thank you, Mr. Chairman.
    I approach this issue with a somewhat unique perspective. I 
care very much about intellectual property rights, having been 
on this Committee for now 7 years and representing major 
intellectual property interests like Disney and Universal, 
frankly, and also am very close with the universities. I was, 
until recently, the Chairman of the Higher Education Committee 
and am now the Ranking Member.
    And so last year I was able to successfully include some 
language into the Higher Education Act, H.R. 609, which set 
aside grant money that universities could apply for that would 
help them in purchasing these sorts of technologies and to make 
an effort.
    In the interest of straight talk, I think that as we move 
forward, and caring very much about both groups, I would say, 
Mr. Vaughn, I would tell the folks you represent that I see a 
sea change coming a little bit. I think any university that 
throws away infringement notices or relies on the old excuses 
of academic freedom or privacy and doesn't have a best 
practices policy, is not interested in technology, I will say 
the hammer is coming, and it is probably going to come sometime 
later this Congress.
    And so I want to see universities get serious about it. And 
I know that some are.
    Let me begin with you, Mr. Marchwinski. This technology was 
developed at University of Florida?
    Mr. Marchwinski. Correct.
    Mr. Keller. Before the technology was implemented at 
University of Florida, what was the situation like in terms of 
bandwidth being used and getting notices of violations?
    Mr. Marchwinski. There was approximately 70 percent of the 
bandwidth was being consumed by peer-to-peer services, and 
between 50 and 80 DMCA complaints were being received per 
month.
    Mr. Keller. After the technology was implemented at 
University of Florida, what was the situation like in terms of 
bandwidth and notices?
    Mr. Marchwinski. The bandwidth dropped significantly to 20 
percent of its prior measure, and since then, the DMCA 
complaints in the residence halls, they have received one in 4 
years.
    Mr. Keller. So, virtually, to nothing.
    Mr. Vaughn said that some technologies can't distinguish 
between legitimate and illegitimate file-sharing. Can your 
technology make that distinction?
    Mr. Marchwinski. No. That is quite the opposite approach. 
We actually take it at the protocol level. And the reason we do 
that is to preserve the privacy of the content of the packet. 
Any technology that tries to distinguish legitimate versus 
illegitimate is looking at the content.
    Mr. Keller. So you don't look at the content.
    Mr. Marchwinski. We do not.
    Mr. Keller. Well, if a person is legitimately downloading a 
song from iTunes, would you software block it?
    Mr. Marchwinski. No, it would not.
    Mr. Keller. Okay. If they were illegitimately downloading a 
song from Kazaa would your technology block it?
    Mr. Marchwinski. Yes, it would.
    Mr. Keller. Okay. Does your software violate student 
privacy?
    Mr. Marchwinski. We don't believe it does.
    Mr. Keller. And why is that?
    Mr. Marchwinski. Because of the condition of not looking at 
the actual contents of the packet. We do monitor based on the 
overall protocol, the behavior of the network, and follow the 
policies that the administrators in that institution set.
    Mr. Keller. Does your cGRID software impinge on academic 
freedom?
    Mr. Marchwinski. Absolutely, not. For institutions that 
want to use peer-to-peer for legitimate use, it is a simple 
rule that we establish in our policy manager that allows them 
to use it for that purpose. We can break it down by logical 
subgroups, a particular class, a particular grade level, a 
particular user community and share that in the policy so that 
it is enabled.
    Mr. Keller. Okay.
    Mr. Vaughn, I sometimes hear the defense of academic 
freedom. Just so we are clear on where you stand, would you 
agree with me that under no circumstances is the defense of 
academic freedom an excuse to illegally download music or 
movies?
    Mr. Vaughn. Absolutely, no question.
    Mr. Keller. Okay.
    Back to you, Mr. Marchwinski. In terms of those situations 
where an institution has opted not to used your product or one 
of your competitors' products, what reasons do you hear for 
them declining?
    Mr. Marchwinski. The first and foremost is that they have 
policy but they don't know how or don't want to implement those 
policies. It is very similar, in the example we heard earlier, 
when you have a policy, even if you make people read the 
policy, if you don't enforce the policy, it becomes rendered 
useless. It is like having a highway with traffic rules that 
are never enforced.
    Mr. Keller. What about the money issue that we have heard 
so much about this hearing?
    Mr. Marchwinski. We have never actually talked to a person 
and have been declined the business because of price. We have 
said that we will work with the institutions, fit into their 
budget cycle and allow them to pay as necessary.
    Mr. Keller. Mr. Feeney started to cover some of this. I 
realize, as the head of this company, you probably think, and 
maybe have a good claim to saying, that your technology is the 
best out there, but give us an idea of how many people you have 
to compete with in this arena.
    Mr. Marchwinski. In the immediate arena, there is about 
five major competitors, and when you extend out past that, 
there is probably another six or eight competitors.
    Mr. Keller. Okay. Thank you.
    Mr. Chairman, my time is up.
    Mr. Berman. Thank you very much, Mr. Keller.
    Mr. Schiff, 5 minutes.
    Mr. Schiff. Thank you, Mr. Chairman. I wanted to ask about 
a couple issues.
    I understand that in the response to the request for 
information on student digital piracy and efforts to undertake 
and to mitigate that piracy that some of the universities 
responded that violated student privacy concerns, others that 
the Copyright Act imposed little legal obligation on network 
operators to monitor or investigate violations of the act.
    That may be true, of course that can be changed, and I am 
interested to get your reaction to a couple different ideas 
that have been percolating. One is, one way to go at this would 
be to narrow the safe harbor, require that best efforts or 
responsible efforts be undertaken to deal with those efforts, 
whether P2P or other, that involve the distribution of illegal 
content.
    And you could have a narrower safe harbor by saying that 
sort of the state of the art is to have a technology that 
filters out illegal distribution, not a requirement to be the 
technology that your company produced or any other but imposing 
a requirement or narrowing the safe harbor to say if you are 
using a technology that is designed to address this problem, 
then you are in the safe harbor, and if you are not, then you 
still may be making a reasonable effort but you are not in the 
safe harbor.
    I would like to get your feelings about a change along 
those lines.
    And, second, because there is a real problem with 
enforcement, we don't have the resources in the Federal 
Government to investigate every violation, it has been 
suggested by some that we employ local law enforcement to be a 
force multiplier and that we empower local enforcement, local 
police to go after certain intellectual property violations and 
then keep the fines that would be assessed for the violations 
as a way of financing the enforcement.
    And I would be interested to get your thoughts on both of 
those proposals. And I direct it to all of you.
    Mr. Vaughn. In terms of the liability limitations, I 
believe you are referring to the DMCA section 512 limitations, 
and I think it is our understanding, and I think Cary may 
disagree with this, but that, strictly speaking, universities 
are not liable for peer-to-peer file-sharing. It is conduit 
traffic that is not hosted on their servers.
    And that virtually every one of our institutions responds 
to notices of claimed infringement, I don't know of any 
institution that doesn't, and some of them do it, I think, 
because they believe they are legally obligated to it, all of 
them do it because it is the right thing to do. So I don't see 
a problem there.
    Our institutions, when they get notices of claimed 
infringement, they respond and take appropriate action, and if 
there is some need to reexamine--I am troubled about the notion 
of a technology requirement to avoid narrowing the safe harbor 
for two reasons: Technology changes so fast, and I doubt if we 
will ever have a technology that everybody agrees works.
    So maybe we would adopt a technology. I assume that this 
procedure would apply to commercial ISPs as well as 
universities, and I, frankly, don't know how they respond to 
claimed infringement notices. I suspect they operate but Cary 
may know. We do it, though, as a matter of proper policy, not 
because we think we are obliged to.
    Mr. Schiff. One analogy, and I don't know how accurate it 
is, we have do not call lists, and there is an obligation to 
check the do not call list to make sure if you are a 
telemarketer you are not calling people who have signed up for 
that.
    If the content producers either put their digital 
protection watermarks or I know there is a way of identifying 
content, a frame in a film or a sequence of images in a film, 
and you could draw on that body or a filter made use of that 
information to decide what was sought to be protected, that 
would, seems to me, be a pretty viable way of doing this.
    Now, again, I am not suggesting we mandate any particular 
technology or even mandate technology, but there might be a 
presumption that if you are using these technologies, that you 
are taking, sort of, the state-of-the-art precautions.
    Mr. Vaughn. Well, Greg Marchwinski mentioned earlier that 
there apparently now are new encryption techniques for the 
infringers that override watermarks and defeat some of those 
technologies. There are technologies that are filtering that 
are quite effective at identifying specific copyrighted 
material that those owners don't want to be distributed on 
peer-to-peer networks, but they are very expensive.
    So this is all changing and trying to figure out how to get 
technologies that can adapt to the college environment, that 
can be affordable, is what this new group we are putting 
together is all about. But we will probably have to put 
together a new group in 2 years, because it will change that 
fast.
    Mr. Berman. Mr. Vaughn, let me cut you off, only because I 
think we should hear a response to Mr. Schiff's question from 
the other two witnesses. Time has expired. I am curious about 
your view of Mr. Vaughn's theory of DMCA.
    Mr. Sherman. The first point is that Mr. Marchwinski's 
technology would actually deal with encrypted files. It works 
even when the files are encrypted, which shows how far 
technology has come. And I think the other problem--I agree 
with John that most universities are very responsive to DMCA 
notices.
    The problem is, it is a reactive system. It is only when we 
find the problem that they will do something about it, when in 
fact it is their network and they have the ability to see what 
is going on on that network, especially on the local network 
where people are using the network every day to infringe dorm 
to dorm rather than over the public Internet.
    They have the ability to do something about it. Technology 
would enable them to do it in a relatively automated way. That 
would be a much, much better solution than putting the burden 
on copyright owners all over the world to monitor every network 
at every university to try and root out infringement.
    Mr. Vaughn. Just to follow up on the last point about 
police enforcing the laws, again, back to my prior analogy, if 
you have laws on the books and they aren't enforced, there are 
going to be infringers, and if you are completely reactionary 
to being warned, then the laws aren't going to be as effective 
as they need to be.
    But the best analogy is imagine a traffic intersection 
where there is a camera now monitoring for people that go 
through red lights. If you were actually caught every time you 
went through a red light, independent of the time or day, 6 
a.m. on a Sunday morning you are going somewhere. ``Oh, there 
is no traffic around, I can go through it.'' Well, if those 
laws are being enforced, the behavior will change.
    Mr. Berman. The time of the gentleman is expired.
    We, of course, don't accept that there is a harm-free 
crossing of a red light in this area, but your point, 
otherwise, is good.
    I yield myself a few minutes just basically to ask one 
rambling, convoluted question.
    There has been reference to the university task force on 
requirements for filtering networks.
    Mr. Vaughn, this really is to you and any response from Mr. 
Sherman as well, because you are both on the Joint Committee on 
Accreditation.
    You had that in November, it hasn't met, it hasn't set up a 
process yet, but you have talked, and you have mentioned here 
you are going to come up in the spring with a series of 
recommendations.
    I hear that but then I hear you talking about, well, you 
can never get everyone to agree on a technology. I thought the 
purpose of this was to sort of agree on a technology, a series 
of technologies, a menu of technologies that were effective, 
that were collaboratively agreed to by the universities and by 
the copyright-owning institutions and their associations.
    And I would like you to respond, do you expect that to 
happen, and if that happens, what will you do to implement it? 
I mean, I see some very nice letters from earlier decisions by 
the joint committee that say, ``We have come to a nice 
agreement here. Take a look at this and see if you''--in other 
words, it didn't have a hammer, not that anyone should be 
called a hammer, but it didn't have a hammer.
    And is there going to be some effort by this task force to 
implement these recommendations and to push the universities on 
this in some way that would give us confidence that this 
process you have created will work through?
    Mr. Vaughn. I think that the way this is going to work is 
that we are going to get university experts that know these 
networks, know how they work, know our policies and just sit 
down with commercial technology vendors.
    We will work with RIAA and MPAA and other entertainment and 
expert folks so that we all three parties working on this 
problem. Because one of the things we have discovered is some 
of the technologies that have been designed for other sectors 
are sort of force fed and don't fit well into ours.
    So what we want to do is explain to commercial vendors what 
our needs are and try to give them the information they can use 
to design more effective products. If we can create 
technologies that accomplish this, we will make every effort--
we can't command institutions to use these, but if there are 
affordable, effective technologies that fit our policies, and 
our timeline is about a 120-day process for this group, you can 
be assured we will do everything to promote that and to 
encourage its implementation.
    What I meant about never agreeing, there will be a 
technology arms race, so let's say that in June----
    Mr. Berman. Oh, I don't think----
    Mr. Vaughn [continuing]. Then 2 years from now we will need 
to do it again.
    Mr. Berman. Yes, but that is not a reason not to do it now.
    Mr. Vaughn. Absolutely. No, I agree.
    Mr. Berman. Mr. Sherman, do you want to add anything on 
this?
    Mr. Sherman. I think John has actually described the 
mandate to the Technology Task Force. We have found that people 
were developing products without input from the university CIOs 
about what their needs are, so we need for them to be 
communicating.
    But more than anything else, we need universities to be 
basically telling the private sector that they would welcome 
the use of effective technologies, so go out and make them, 
invest in them, have more companies get into this field.
    Because there won't be a supply unless there is a demand, 
and we need the universities to basically say, ``We think 
technology solutions can be a very helpful element of 
addressing this problem and we would like to see those 
technologies and work with you to help implement them.''
    Mr. Berman. Very good. If there is nothing else, I----
    Mr. Sherman of California. Mr. Chairman, you asked earlier 
whether Mr. Sherman had anything to add.
    Mr. Berman. Yes. I will use first names from now on.
    The gentleman from California has not had a chance to 
question yet, and he is recognized for 5 minutes.
    Mr. Sherman of California. Why, thank you, Mr. Chairman.
    Both the other Mr. Sherman and Mr. Davis have both used the 
phrase, ``teachable moment,'' and I would like to ask what role 
education can play in ending piracy, both proactively and 
reactively. Students already know, or probably know, that it is 
not legal to download a whole movie that is in the theaters, 
but they are doing it anyway. And it would seem that that could 
be counteracted by ethics education.
    Of course, you might also need technical legal education on 
what copyright law is, because students may not even know--I 
think Mr. Davis pointed this out--that it is illegal to 
download last week's episode of The Office over a peer-to-peer 
network, because it seems analogous to just using a VCR or 
TiVo.
    Both educational institutions and entertainment companies 
are pretty much the two leading educational institutions of 
this society. Both have an opportunity to educate those who 
would violate copyright law.
    Are there plans by the AAU or by the entertainment industry 
to educate students, either on what they are allowed to do 
legally and what is illegal or on the ethical importance of 
following the law?
    Mr. Vaughn. There are several reasons that I mentioned in 
my written testimony for universities caring about attacking 
illegal peer-to-peer file-sharing. Probably, I think, the most 
fundamental one is our central obligation, as part of the 
overall education of these students, to produce students that 
are good citizens that understand legal, ethical, moral 
behavior. When we fail to do that, we have failed at part of 
our mission.
    So trying to attack this in that teachable moment that Jim 
Davis mentioned is one of the most fundamental parts of this 
and, ultimately, one of the most effective.
    On a 50,000-student campus, that may be difficult to 
implement, but UCLA is a pretty big campus, and they seem to be 
doing it pretty effectively. We need to marry that with some 
more immediate techniques, like enforcement, like technology, 
but I think trying to incorporate that is a very important part 
of this whole effort.
    Some institutions do it better than others, and when you 
have a busy institution with everybody doing a million 
different things, when you can identify a set of practices for 
teaching students, freshman when they come in, violators when 
they are caught, in effective ways and you spread that across 
the campuses, you can really help disseminate effective 
practices effectively, and that is part of what we hope to do.
    Mr. Sherman of California. I hope that you would educate 
students not just that, ``it is illegal so it is wrong.'' I 
mean, the reason you don't go through that red light is because 
if 100 people do it, even at 6 in the morning, we are going to 
see one of them in an accident.
    What I haven't seen adequately explained to students is not 
just how the entertainment industry would be hurt if everything 
gets copies and pirated, but how our culture would be hurt. We 
all like seeing the movies, and if there is no way to pay for 
them, they may still make them, but then they will design them 
to get a couple hundred million bucks' worth of product 
placement, and you can just imagine how boring and contrived 
the plots will be if you have to write the movie not to garner 
the biggest box office, because there is no box office, but to 
garner the biggest product placement fees. And I would hope 
then that your education would be both in terms of people who 
make content deserve to be paid but what happens when they are 
not paid.
    But I would like to turn to Cary and ask, what is the 
entertainment industry--and I realize you don't speak for the 
entire industry--doing to educate the public as to what 
copyright law requires, what it allows, what it doesn't, and 
why it is unethical, illegal and ultimately harmful to violate 
that law?
    Mr. Sherman. We have launched a series of educational 
initiatives, starting with grades 3 through 6, 6 through 8, 9 
through 12 and universities, and they all have different 
educational messages, because different messages resonate with 
different ages. When you are young, whether it is right or 
wrong or legal or illegal makes a big difference. When you are 
in college, it makes very little difference. So you need a very 
different message.
    And, in fact, that is why the lawsuits have been so 
effective, because college students are much more focused on 
how something will impact them, rather than how it will impact 
somebody else.
    But I think that we are trying to come up with messages 
that will make a difference. The orientation video that we 
created for college students was intended to tell them what 
they have got at stake in the issue. The fact that there may be 
fewer movies or less music has not resonated as a message.
    But I think this is also part of a larger issue. It is not 
just copyright. It is that I don't see any program anywhere, 
whether we are talking about high schools or universities, 
where how you live in a cyberworld is taught. It is a totally 
new ethical situation, and there is nobody taking 
responsibility for how we are going to do that. We need that 
curriculum.
    Mr. Sherman of California. Thank you.
    Mr. Berman. The time of the gentleman has expired.
    I thank all my colleagues for their great participation.
    It is the Chairman's intent in half a year or so, assuming 
the Congress is still in session, and I have very little doubt 
that we will be, to find out how many of the association 
members have adopted the recommendations of the committees that 
you have all put together to develop the technological 
recommendations to implement a more effective policing of these 
networks.
    And I thank you all very much for participating and adjourn 
the hearing.
    [Whereupon, at 4:50 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Stephen I. Cohen, a Representative 
 in Congress from the State of Tennessee, and Member, Subcommittee on 
            Courts, the Internet, and Intellectual Property
    The piracy of copyrighted works is of serious concern to me. Piracy 
of copyrighted works costs the U.S. economy billions of dollars every 
year and adversely affects creative industries that are responsible for 
providing millions of jobs for Americans. Digital piracy by students 
using university networks is a large part of this problem and has been 
for quite some time, as most of our witnesses appear to acknowledge in 
their written testimony. I am eager to discuss what the current status 
of this problem is, what steps have been taken by universities to 
combat student piracy since the last time the Subcommittee visited this 
issue, and what additional steps they intend to take in the future.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
    Subcommittee on Courts, the Internet, and Intellectual Property
    Thank you, Mr. Chairman for holding this hearing today. Let me also 
thank the Ranking Member. I would also like to welcome and thank our 
distinguished panel of witnesses who have joined us here today to 
discuss piracy on university networks:

        <bullet>  Mr. Cary H. Sherman, (RIAA) Recording Industry 
        Association of America, Washington, D.C.;

        <bullet>  Mr. John C. Vaughn, Executive Vice President, 
        Association of American Universities, Washington, D.C.;

        <bullet>  Mr. Gregory J. Marchwinski, President and Chief 
        Executive Officer, Red Lambda, Longwood, Florida; and

        <bullet>  Mr. Jim Davis, Associate Vice Chancellor for 
        Information Technology, (UCLA), University of California, Los 
        Angeles, CA.

    The purpose of today's hearing is to inform and update the Members 
of this Subcommittee on the status of ongoing efforts, which have been 
undertaken by copyright owners, universities, and higher education 
associations to educate students and prevent the illegal distribution 
of copyrighted content over university networks.
        the history of illegal downloading of copyrighted music
    Illegal downloading has been well documented and was brought to the 
forefront of the intellectual property arena when the entertainment 
industry undertook extensive efforts to prevent Napster from providing 
a means for its users to illegally download and disseminate music. On 
the Napster system, users could not only play the music back after 
downloading it but also record it to a compact disk by using a CD 
writer.
    Napster also allowed music to be played from their server and 
maintained user forums. This access to free music quickly became 
popular on college campuses. Some schools have banned the application 
because of its high bandwidth demands.
    Mr. Chairman, in 1999, Napster began facing challenges from the 
Recording Industry Association of America (RIAA), which filed a lawsuit 
claiming copyright infringement as well as from some recording artists 
such as the rock band Metallica. In 2000, colleges and universities 
began banning Napster because overuse was overwhelming their computers 
systems. On July 26, 2000, the U.S. District Judge Marilyn Hall Patel 
issued a preliminary injunction to Napster ordering them to shut down 
their website.
    Although an appeals court granted Napster's request for to stay its 
order, three days later, on February 15, 2001, the United States Court 
of Appeals for Ninth Circuit affirmed the order holding Napster liable 
for all illegal downloads made by users of their software. The court 
ordered the company to block trading of copyrighted files. Napster, the 
court said, can be held liable damages, which could exceed hundreds of 
millions of dollars.
    After offering a $1 billion settlement to the industry, and shortly 
thereafter being ordered by Judge Patel to prevent users from trading 
unauthorized files within 3 business days of receiving notice from the 
copyright owner, Napster filed for Chapter 11 bankruptcy in June of 
2002.
    On July 25, 2002, nineteen members of Congress signed a bipartisan 
letter to Attorney General John Ashcroft and the U.S. Department of 
Justice to prosecute ``peer-to-peer'' networks and the users who swap 
copyrightable files without permission and to devote more resources to 
police the downloading of online copyrighted material. In August, 2002, 
the RIAA publicized a survey by Peter D. Hart Research, which found 
that--by a more than a two-to-one margin--music consumers who say they 
download music for free off the Internet also say they purchase less 
music from retailers. On September 3, 2002--Napster ceased operations 
after Judge Peter J. Walsh of the Federal Bankruptcy Court in Delaware 
blocked the sale of the company.
    Mr. Chairman, though Napster no longer exists, it has given rise to 
other Web-based applications for downloading MP3 files, such as 
Gnutella, Napigator, and Wrapster. In addition to Napster, Macintosh 
gurus can download Macster and open source adherents can use GNapster.
    On September 26, 2002, an unprecedented alliance of musicians, 
songwriters, music organizations, and record companies--dubbed the 
MUSIC Coalition--launches an aggressive education campaign aimed at 
combating the illegal distribution of copyrighted music over the 
Internet. On October 10, 2002, in a letter to more than 2,300 college 
and university presidents, members of the creative content industries--
including the RIAA, the Motion Picture Association of America, the 
Songwriters Guild of America and the National Music Publishers 
Association--explained how serious the problem of peer-to-peer piracy 
is on America's campuses and what school officials can do to help solve 
it.
    In December 2002, the entertainment industry and higher education 
community joined to create the Joint Committee of the Higher Education 
and Entertainment Communities to address the increasing use of 
university servers for copyright infringement on peer-to-peer networks.
    Mr. Chairman, this Subcommittee today will again consider the 
testimony of witnesses regarding the subject of student piracy of 
copyrighted content, as it did in the 108th and 109th Congress. I look 
forward to the testimony of our witnesses and hope that today we will 
learn that there has been a concerted effort by all parties involved to 
reach common ground and a shared understanding of the importance and 
value of protecting copyrighted materials by preventing its illegal 
distribution.
    Thank you, Mr. Chairman. I yield back the remainder of my time.

                               ATTACHMENT
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Prepared Statement of the Honorable Lamar Smith, a Representative in 
  Congress from the State of Texas, Ranking Member, Committee on the 
   Judiciary, and Member, Subcommittee on Courts, the Internet, and 
                         Intellectual Property
    Mr. Chairman, I thank you and the ranking member for selecting 
student digital piracy on university networks as the topic of the first 
copyright hearing this Congress.
    This is not a new subject. While I was the subcommittee chairman 
and you were the ranking member, we held several hearings on this 
matter.
    At the initial hearing, I noted that ``[t]his hearing will focus on 
the extent of peer-to-peer piracy on university campuses and what 
measures content owners and universities are taking to address the 
problem.''
    You noted then that, ``P2P file trafficking causes great harm to 
copyright owners,'' and that ``colleges play a prominent role in 
contributing to P2P piracy.''
    The extent of that harm has increased exponentially over the 
intervening years.
    This Subcommittee and Congress have been patient in working with 
university administrators and representatives from education 
associations to implement voluntary solutions to the student digital 
piracy problem.
    Unfortunately, the testimony before the Subcommittee today and 
published reports indicate that some in the university community have 
sought to minimize the importance of addressing this issue in an 
effective manner.
    In fact, they have gone so far as to publicly discourage college 
and university officials from providing responses to a voluntary survey 
that the Government Accountability Office (GAO) prepared at your and my 
request in the last Congress.
    Although the problem of peer-to-peer piracy is not confined solely 
to colleges and universities, the fact is that 44% of the domestic 
piracy losses suffered by the U.S. motion picture industry--more than 
half a billion dollars each year--are directly related to student 
digital piracy by college students.
    Many university administrators have accepted their responsibility 
to do more to curb the theft of intellectual property via university 
networks, which--after all--are geographically limited and have access 
controlled by university technology officers.
    But it is clear other education officials continue to resist the 
adoption of new technologies and enforcement policies that would likely 
prove much more effective at restricting or eliminating such theft.
    I commend those university officials who have made an effort to 
fulfill their obligations.
    To those who have not, I will simply note the Members of this 
subcommittee have an affirmative responsibility under Article I, 
Section 8 of the Constitution, to ``promote the progress of science and 
useful arts by securing for limited times to authors and inventors the 
exclusive right to their respective writings and discoveries.''
    At the conclusion of this fourth hearing on the subject of student 
digital piracy, this Subcommittee will have built an extensive record 
that could be used to justify the drafting of additional legislation to 
remedy the problem.
    In closing, I want to thank the new Chairman and Ranking Member of 
the Subcommittee for their recognition of the importance of this issue.
    Mr. Chairman, I yield back the balance of my time.
 GAO Study of Colleges submitted by the Honorable Howard L. Berman, a 
Representative in Congress from the State of California, and Chairman, 
    Subcommittee on Courts, the Internet, and Intellectual Property

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Dear Colleague Letter, Curbing Student Digital Piracy on College 
                           Computer Networks
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Top schools receiving the highest volume of DMCA copyright infringement 
notices from the RIAA beginning in September 2006 through mid-February 
                                  2007
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Additional material submitted by John C. Vaughn, Executive Vice 
    President, Association of American Universities, Washington, DC
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Letter from Dan Glickman, Chairman and Chief Executive Officer, 
         Motion Picture Association of America, Washington, DC
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
